<html>
<title> - IRAN NUCLEAR NEGOTIATIONS AFTER THE SECOND EXTENSION: WHERE ARE THEY GOING?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 IRAN NUCLEAR NEGOTIATIONS AFTER THE SECOND EXTENSION: WHERE ARE THEY 
                                 GOING?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2015

                               __________

                            Serial No. 114-5

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-850 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Eric S. Edelman, distinguished fellow, Center for 
  Strategic and Budgetary Assessments............................     5
Mr. John Hannah, senior fellow, Foundation for Defense of 
  Democracies....................................................    19
Mr. Ray Takeyh, senior fellow for Middle Eastern studies, Council 
  on Foreign Relations...........................................    25
The Honorable Robert Einhorn, senior fellow, Foreign Policy 
  Program, The Brookings Institution.............................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eric S. Edelman: Prepared statement................     8
Mr. John Hannah: Prepared statement..............................    21
Mr. Ray Takeyh: Prepared statement...............................    27
The Honorable Robert Einhorn: Prepared statement.................    34

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Letter from the Hekmati family........................    81
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    82

 
                  IRAN NUCLEAR NEGOTIATIONS AFTER THE
                    SECOND EXTENSION: WHERE ARE THEY
                                 GOING?

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. I will ask all the members if you could 
take your seats and this hearing will come to order.
    This morning we are looking at the prospects for reaching a 
viable nuclear agreement with Iran; one that increases our 
national security. This has been, and will continue to be one 
of the committee's top priorities. For those of us that have 
worked on his issue for a number of years like Ileana Ros-
Lehtinen and myself, Mr. Sherman, Mr. Engel, we remember well 
last year or last session. We presented legislation here that I 
and Mr. Engel authored that passed this committee unanimously 
that attempted to bring more pressure on Iran by giving the 
Ayatollah a choice between economic collapse or compromise on 
his nuclear weapons program. It passed here unanimously, as I 
mentioned, and in the floor of the House of Representatives, 
400 to 20.
    Some would argue--certainly we believe this--that the 
leverage that we brought to bear has helped bring Iran to the 
table. But we have dealt with administrations in the past, 
whether Democrat or Republican. Mr. Sherman and I can tell you 
in terms of sitting through many of these meetings, our 
frustrations with the delay in really bringing the type of 
leverage and sanctions to bear on Iran to get the type of deal 
that we thought was verifiable.
    Now we have had a decade now of diplomatic negotiations 
over Iran's pursuit of nuclear technology in violation of the 
U.N. Security Council Resolutions on this subject. These have 
reached their height over the past year, as the Obama 
administration, along with the UK, France, Russia, China, and 
Germany, have been seeking to negotiate a ``long-term 
comprehensive solution'' to Iran's illicit nuclear program. 
During these talks, Iran has agreed to limit its nuclear 
program temporarily in return for some sanctions relief.
    A final agreement would free Iran of sanctions, which was, 
by the way, in our view at least, driven to the negotiating 
table by the previous sanctions that we had enacted here, while 
allowing it to maintain a ``mutually defined enrichment 
program,'' to be treated like any other ``non-nuclear weapon 
state party to the Nonproliferation Treaty.'' That best case 
would leave Iran as a threshold nuclear state. But worse, any 
limits placed on Iran's nuclear program as part of the 
``comprehensive solution'' would, of course, based on this 
agreement, expire. Maybe in 10 years, maybe sooner. But there 
is an expiration that is being discussed right now in the 
agreement.
    Negotiations, now into their second extension, appear to be 
stalemated. That is even after U.S. negotiators move closer and 
closer to Iranian positions. According to the administration, 
``big gaps'' remain, and a senior official hinted last week 
that talks may extend again come June's deadline.
    Meanwhile, the Ayatollah, since he is the one that makes 
the final decision here, has been advancing Iranian nuclear 
programs: Pursuing new reactors; testing a new generation of 
centrifuges, and operating Iran's illicit procurement network. 
These actions clearly violate the spirit of the interim 
agreement. Yet, the administration appears more concerned that 
sanctions, designed to strengthen its negotiating hand, and 
which would have no impact, no impact, unless Iran walks away 
from negotiations, could sink an agreement. So let us be clear. 
If an agreement is sunk, it is because Iran has no interest in 
abandoning its drive to nuclear weapons, which is what many of 
us believe.
    Of course, Iran's nuclear work isn't Iran's only 
provocation. While Iranian diplomats put on a good face in a 
European negotiating room, its IRGC, its Quds Forces, and other 
proxies have been busy working to influence and ultimately 
dominate the region. And this is what we hear from the Gulf 
States and from our other allies throughout the region. Iran is 
boosting Assad in Syria and Hezbollah continues to threaten 
Israel. In '06, I watched as those rockets from Iran and Syria 
came down on Haifa. Today, there are 100,000 such rockets, 
thanks to Iran's production. And Iranian-supplied rockets to 
Hamas rained down recently on Israel. Frankly, last week, an 
Iranian-backed militia displaced the government in Yemen, 
something that we had heard about from the Ambassadors from 
throughout that region; their concern that the Iranians were 
going to topple that government. It was, frankly, the toppling 
of a key counterterrorism partner of ours. Most in the region 
see Iran pocketing a nuclear deal and continuing with its 
domination, certainly no winning game plan to stabilize the 
Middle East. Not to mention that Iran's horrendous repression 
at home continues. This isn't a negotiating partner that gives 
much confidence.
    If we are going to have any chance of a deal that advances 
U.S. national security interests, Iran's leaders have to feel 
that their only choice is a verifiable and meaningful 
agreement. We are far from it. Worse, many in the region feel 
Iran is on the rise. Falling oil prices should strengthen our 
hand, but the Obama administration has yet to explain a single 
change as to how it will negotiate differently with Iran over 
the coming months, it raises questions. And while the 
administration reaches for a deal, it should do so 
understanding the regime's duplicity and militancy. And when I 
say its militancy, the fact that the Ayatollah still leads 
chants of ``Death to America'' and ``Death to Israel'' and Iran 
still speaks of Israel as ``the one bomb country'' and still 
speaks of its long-term confrontation with the U.S., this again 
gives the members pause who have dealt with Iran for a long 
period of time.
    In addition to more economic pressure, we should have an 
Iran policy with thought-provoking broadcasting to inspire 
Iranian dissent, a focus on its horrendous human rights abuses 
and illicit procurement networks, as well as bolstering allies 
in the region that face Iranian aggression.
    As one former intelligence official told the committee last 
year, ``Iran's nuclear program is just the tip of a 
revolutionary spear that extends across the world and threatens 
key U.S. interests.'' This is a regime that is playing for 
keeps. Yet sometimes it seems the administration is more 
concerned about Congress moving on sanctions than pressuring 
its treacherous and deadly negotiating partner that is on the 
other side of that table.
    We look forward to hearing from our witnesses today on the 
future of these discussions and options we can pursue that 
would truly end the threat of a nuclear-armed Iran. And I will 
now turn to Mr. Brad Sherman of California for his remarks.
    Mr. Sherman. Thank you, Mr. Chairman, for holding these 
critical hearings, our ranking member, Eliot Engel, has been 
asked by the President to join the administration in the 
memorial service for King Abdullah of Saudi Arabia.
    Some may ask why we are having these hearings at all here 
in Congress. After all, the Executive Branch may take the 
position that Congress is only an advisory body when it comes 
to foreign affairs. I think we have a co-decisionmaking 
responsibility and that is why I think we need our witnesses 
here to guide us in making those decisions.
    We have universal agreement on the goal: Prevent Iran from 
having nuclear weapons. But we need to get down to the fine 
points. What will a good agreement look like? What sanctions 
should we impose if Iran does not agree to a good deal by June 
30th? And who, or what body here in Washington will be 
answering these questions? Is it Congress' role only to advise 
the President? Or are we supposed to pass laws that are carried 
out?
    Now Iran is operating under the twice extended Joint Action 
Plan. It is inaccurate, as some have said, to say that that 
plan has halted their program. The centrifuges continue to 
turn. They build their stockpile of 3\1/2\ percent enriched 
uranium. It may be oxidized, but it can be returned to gaseous 
form, ready for further enrichment rather easily. And of 
course, this analysis doesn't even include their work on more 
powerful gas centrifuges, their weaponization program, 
etcetera.
    But the Joint Action Plan has impeded the Iranian program 
and it is better than nothing. Their 20 percent enriched 
uranium has been diluted in most cases or to a great degree. So 
Iran is a little further away from their first bomb or at least 
having highly-enriched uranium for it, but is getting closer 
every day to their sixth, seventh, or eighth bomb as they 
continue to build an increasingly large stockpile of low-
enriched uranium. And it is counter intuitive, but as I think 
our witnesses will illustrate, going from uranium ore to 3\1/2\ 
percent enriched uranium, even 3\1/2\ percent enriched uranium 
oxide is more than half the work. Going from 3\1/2\ percent to 
93 percent, is the easier part of that effort.
    So the issue then is whether we should have sanctions that 
go into effect on July 1. The fact is Iran has a July 1 
program. They just haven't had to publish it because they don't 
have an open society where they have to make decisions in 
public. We ought to have a July 1 program ready to go and in 
order to do that, Congress actually has to vote on a bill, 
rather than not vote until July.
    Now a little history, until 2010 our sanctions toward Iran 
were modest at most, certainly not enough to dissuade them in 
2010. The President signs CISADA. We got the Menendez-Kirk 
sanctions and we finally began to put some reasonable pressure 
on Iran. Keep in mind the last administration presented us from 
passing any new meaningful legislation, or at least any new 
major legislation. And the Obama administration opposed 
sanctions in its first few years. But the Obama administration 
has done a commendable job of enforcing the laws that Congress 
has passed, even the ones we passed over their objections.
    We have frozen Iranian assets around the world. We have 
forced a decline in their oil exports, but they were still 
estimating 2 percent economic growth. That growth will be lower 
because of the decline of oil prices, but the Iranian economy 
is slated to grow far faster than a majority of countries in 
the EU.
    I do want to pick up on the chairman's comments about 
broadcasting. One approach is that we simply rebroadcast into 
Iran the many Farsi language programs made in California. Now 
some are politically incorrect. We shouldn't endorse anything 
there, but we could get those retransmitted for pennies a 
minute and let 1,000 or at least a dozen flowers bloom where 
the Iranian people can hear all of these different views being 
presented in their own language free from U.S. Government 
control.
    As to evaluating the agreement, I think that in addition to 
looking at how robust their centrifuge program is, we have to 
ask how much uranium will Iran be able to retain in its 
stockpiles. We can do a lot even if they have more centrifuges 
than we would want if every night the uranium enriched is 
exported to some other country.
    Finally, we could reach a compromise with the 
administration on the whole issue of the timing of legislation. 
They have said that they are going to come up with--talking to 
them last night--a good agreement on the political matters by 
the end of March. So let us pass a bill in the House. Let us 
pass a bill in the Senate and let us go to conference. And let 
us wait to see what the administration can prepare, but only if 
the administration agrees that they will stop efforts to delay 
new sanctions at that point, except to show us the non-
technical agreement in principle reached in Switzerland. 
Instead, the President and the administration asks us to slow 
down for this reason and then later slow down for that reason 
and then they are free to tell us to slow down for the next 
reason, only because we acted faster than the administration 
wanted and we brought Iran to this point. And I yield back.
    Chairman Royce. I thank the gentleman for yielding. Before 
we go to our witnesses, I will just mention that I think Mr. 
Sherman's concept of broadcasting into Iran, also some of these 
cultural programs because we forget that the Ayatollah has made 
it a sin or interprets it as a sin for women to sing. So a lot 
of popular music and programs--I remember when that tune 
``Happy'' was recorded by some young women in Iran and boy, did 
they feel the lash because they had sung to that tune. And I 
think at times we are not really focused on the nature of just 
how brutal this regime is on its own people, especially on 
women, and the way in which a regime treats its own people will 
sometimes tell you a lot about how they might treat their 
neighbors.
    Let us go to our distinguished group of experts. Ambassador 
Eric Edelman is a Distinguished Fellow at the Center for 
Strategic and Budgetary Assessments. Previously, he served as 
U.S. Ambassador to Finland during the Clinton administration 
and to Turkey. Ambassador Edelman also served as Under 
Secretary for Defense Policy from 2005 to 2009.
    Mr. John Hannah is a Senior Fellow at the Foundation for 
Defense of Democracies. He previously served as National 
Security Advisor to the Vice President from 2005 to 2009. Mr. 
Hannah has also worked at the State Department.
    Dr. Ray Takeyh is a Senior Fellow for Middle East Studies 
at the Council on Foreign Relations. He previously served as 
Senior Advisor on Iran at the State Department and was 
Professor at the National Defense University.
    Mr. Einhorn, Robert Einhorn is a Senior Fellow at the 
Brookings Institution and before joining Brookings in 2013, he 
served as the State Department's Special Advisor for Non-
Proliferation and Arms Control. And he was Senior Advisor at 
the Center for Strategic and International Studies.
    And without objection, the witnesses' full, prepared 
statementswill be made part of the record. And members will 
have 5 calendar days to submit statements and questions and 
extraneous material for the record. So we will start with 
Ambassador Edelman. If you all would just summarize your 
remarks to 5 minutes, that would be perfect. Thank you.

   STATEMENT OF THE HONORABLE ERIC S. EDELMAN, DISTINGUISHED 
     FELLOW, CENTER FOR STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Edelman. Mr. Chairman, I will do my best. First, I 
would like to thank you and Ranking Member Engel and Mr. 
Sherman and the other members of the committee for giving me 
the opportunity to appear today to discuss the implications of 
the current negotiations on Iran nuclear matters. I remember 
well, Mr. Royce, the codel that you led to Turkey when I was 
Ambassador more than 10 years ago when one of the issues we 
discussed because, of course, Turkey is one of Iran's 
neighbors, was this very subject. And what I hope to do today 
is provide both a little bit of a retrospective look back and 
also a prospective look forward on where we stand with Iran.
    Preventing a nuclear weapons capable Iran remains, I think, 
the most pressing national security challenge facing the United 
States today. As President Obama himself said in a speech he 
gave in 2012, ``a nuclear-armed Iran is not a challenge that 
can be contained. It would threaten the elimination of Israel, 
the security of the Gulf nations, and the stability of the 
global economy. It risks triggering a nuclear arms race in the 
region and the unraveling of the nonproliferation treaty.''
    I would submit that the turmoil we currently see in the 
region is in no small part a reflection of Iran's ``struggle 
for mastery'' in the Middle East where its aspirations and 
involvement in a series of conflicts have created a dynamic 
that drives both Sunni and Shi'a extremism throughout the area 
and threatens the regional power balance.
    In Iraq, Iran's patronage of Shi'a militias before and 
especially since the departure of U.S. forces in December 2011 
has disrupted the domestic political balance and fed the 
recrudescence of Sunni Islamist extremism manifested in the 
resurgence of the Islamic State last year.
    In Syria, the IRGC provides the money, oil, weaponry and 
with the help of Hezbollah, front-line soldiers that the al-
Assad regime needs to grind down the moderate Sunni opposition. 
This, in turn, feeds the radicalization of the Sunni population 
and provides fertile ground for recruiting by the al Nusra 
front and the Islamic State. Iranian policy also strains 
Lebanon's delicate political balance and its Western-backed 
armed forces, thereby increasing the odds of another round of 
war between Israel and Lebanon. And as you noted in your 
opening statement, much of Hamas' arsenal and combat training 
have come from Iran, including many of the weapons it used to 
attack Israeli civilians this past summer.
    Finally, again, as you noted in your statement, Houthi 
rebels in Yemen have taken over much of the country in recent 
weeks, culminating in the resignation of President Hadi and 
Prime Minister Bahah and the collapse of that fragile country's 
counterterrorism cooperation with the United States against 
AQAP. This is a development I want to stress that threatens the 
homeland security of the homeland as well as that of our 
European allies.
    Iran's regional revisionism is already proceeding at a 
breath-taking pace even without the sword and shield that a 
nuclear weapons capability would provide it. It is no wonder 
that our traditional allies in the region worry that a nuclear 
armed Iran or even an Iran on the threshold of nuclear weapons 
would be emboldened to sow even more havoc in the region.
    The prospect of Iran crossing the nuclear threshold has 
spawned more than a decade of diplomacy intended to restrict 
its potential pathways to a bomb. But unfortunately, in my 
view, the objectives of these negotiations have become steadily 
more limited over the years, as Iran's intransigence has led 
the United States and its diplomatic partners to repeatedly 
define down their red lines in favor of Iran's.
    On the eve of the Joint Plan of Action, with Iran perched 
on the nuclear threshold, a task force that I co-chair with 
Dennis Ross, spelled out a series of benchmarks for an 
acceptable final deal. We argued that any such agreement would 
have to tangibly roll back Iran's ability to produce enough 
weapons-grade uranium for a nuclear device, impose a strict 
inspections regime, adhere to international legal requirements, 
and resolve the outstanding concerns of the International 
Atomic Energy Agency. To pressure Iran to meet these standards, 
the U.S. and its allies would need to negotiate from a position 
of strength and implement a strict deadline for the talks. And 
I would add use the leverage that the Congress has provided it.
    Unhappily, the comprehensive agreement outlined by the 
Joint Plan of Action reflects the P5+1's receding red lines. 
And as such, I think it falls short of the aforementioned 
principles, to the serious detriment of U.S. national security.
    Despite constant assurances from administration officials, 
including Secretary Kerry that ``a bad deal is worse than no 
deal,'' the pattern of concessions and the negotiating dynamic 
that has been established give very strong reasons for outside 
observers to feel that that the negotiations are moving far 
beyond the parameters of an acceptable final agreement.
    It is difficult to envisage such an agreement without a 
change in the trajectory of these negotiations, and without a 
decisive change in Iran's calculus of its own best interests. 
American policymakers must use all available instruments of 
coercive diplomacy to restore credibility to the oft-repeated 
statement that every option remains on the table to prevent a 
nuclear Iran. Success is only possible if Iran realizes it has 
more to lose from the failure of diplomacy.
    The U.S. retains an ability to exert pressure through 
sanctions. Moreover, I would argue that today given the current 
oil market, the balance is highly disadvantageous to Iran. Not 
to put too fine a point on it, given the current price of oil, 
we don't need to fear that having Iranian oil off the market 
would roil international markets and set back the recovery of 
the global economy. For these reasons, the United States can 
credibly threaten more stringent measures against energy and 
other vital sectors if Iran continues its obstinacy.
    I think American policymakers should clarify and strengthen 
our declaratory policy. I think it would be useful for the 
Congress to hold hearings on the feasibility of the military 
option in publicizing some of the advanced U.S. military 
capabilities, such as the GBU-57 Massive Ordnance Penetrator, a 
bunker buster designed specifically to reach targets like 
Iran's deeply-buried illegal nuclear facilities.
    The United States should also boost the credibility of 
Israel's military option as well.
    Finally, as one of the other panelists and I argued 
recently in the press, the United States must be willing to 
compete with Iran rather than actively seeking its partnership. 
On one level, this requires a change in tone, but the 
administration must emphasize its readiness to exert more 
pressure on Iran instead of exerting pressure on Congress with 
talking points that come to quote a ranking member of the 
Senate, ``straight out of Tehran.''
    Mr. Chairman, I thank you again and your colleagues for 
scheduling this hearing and the members for their patience and 
consideration and I look forward to the rest of the hearing and 
answering any questions.
    [The prepared statement of Mr. Edelman follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador. Mr. Hannah.

  STATEMENT OF MR. JOHN HANNAH, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Hannah. Thank you, Mr. Chairman. Mr. Chairman, 
Congressman Sherman, members of the committee, thank you for 
the opportunity to participate in this hearing. I have to 
confess to having deep concerns about the state of the 
negotiations with Iran. I worry that, starting with the Joint 
Plan of Action, the United States has already agreed to a 
series of concessions that will make the achievement of a good 
deal very difficult.
    The decision 14 months ago to accede to Iran's core demand 
that it retain an ability to enrich uranium was indeed a 
fateful one. It reversed longstanding U.S. policy opposing any 
Iranian enrichment and contravened six hard-won U.N. Security 
Council resolutions. It represented a strategic concession by 
the United States on an issue of absolutely central importance 
to Iran. Whatever the merits of the Joint Plan of Action, and I 
agree with Congressman Sherman that it does have merits, the 
fact is that Iran was required to make no reciprocal concession 
of even remotely similar strategic value to the United States.
    On the contrary, every commitment made by Iran under the 
JPOA has been strictly tactical in nature and easily 
reversible. The administration's concession on enrichment had 
the effect of transforming the fundamental objective of U.S. 
strategy toward Iran. It represented the abandonment of the 
goal of eliminating Iran's capability to produce nuclear 
weapons. Instead, the United States retreated to the much less 
ambitious goal of simply extending the time it would take Iran 
to break out to a nuclear bomb.
    The concession on enrichment, unfortunately, set the 
template for what has been a troubling dynamic that has come to 
characterize the talks. On a number of key issues, virtually 
all the concessions have come from the P5+1. All the 
significant movement has been away from America's red lines and 
toward Iran's red lines. And in the process, in my view, the 
heart of America's longtime position with respect to Iran's 
nuclear program, that is, the dismantlement, destruction, and 
irreversible rollback of Iran's nuclear weapons-related 
infrastructure, has largely been gutted.
    As problematic as this is, perhaps even more troubling is a 
second concession of enormous strategic consequence that the 
U.S. made to secure the JPOA. I am referring to the so-called 
sunset clause that put an expiration date on any comprehensive 
deal that might be reached. In short, whatever restrictions 
that a final deal imposes on Iran's nuclear program will 
themselves only be temporary.
    After a period of years yet to be determined--the U.S. is 
hoping for 15--Iran will not only be free of all sanctions, it 
will be treated on a par with every other non-nuclear weapon 
state that is a member in good standing of the NPT. That means 
that Iran can be like The Netherlands, which spins hundreds of 
thousands of centrifuges to produce reactor fuel. It can be 
like Japan that maintains enough stockpiled plutonium for 
thousands of nuclear warheads. It can be like Brazil that plans 
to produce highly enriched uranium of up to 90 percent to power 
its nuclear submarines. All of that will be perfectly 
permissible--regardless of whether Iran in 15 years is led by 
the equivalent of Ahmadinejad 2.0; regardless of whether its 
highest political and military leaders continue to call for 
Israel's destruction; and regardless of whether Iran remains 
the world's leading sponsor of terrorism.
    Some may hope that in those intervening 15 years Iran will 
be transformed into a normal, non-revolutionary power that is 
prepared to forego its war with the Great Satan and its 
ambitions to dominate the Middle East. Perhaps those hopes will 
be borne out. But who would be willing to bet U.S. national 
security on it? In my mind, that is an enormous risk to run.
    I recognize, of course, that despite the very generous 
concessions that the P5+1 have put forward, Ayatollah Ali 
Khamenei's intransigence continues. We can speculate on why 
that is the case and what more might still be done to break the 
stalemate by convincing the Supreme Leader to make the 
concessions necessary for a deal, including the possibility of 
legislating prospective sanctions. But at the same time, I 
would simply urge that Congress devote at least as much energy 
to examining the substance of any deal that might emerge, with 
the aim of identifying those outstanding issues where Congress 
might still be able help to stiffen the administration's 
positions in ways that would mitigate the risks as much as 
possible.
    Finding ways to increase pressure on Iran to make a deal is 
certainly a critical issue. But simply pressuring Iran for the 
purpose of accepting what could amount to a bad deal would be a 
pyrrhic victory, indeed. Thank you again for the opportunity to 
present my views and I look forward to your questions.
    [The prepared statement of Mr. Hannah follows:]
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              


 STATEMENT OF MR. RAY TAKEYH, SENIOR FELLOW FOR MIDDLE EASTERN 
             STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, members of the committee, for 
inviting me to come back once more. I would echo actually what 
Chairman Royce suggested, namely that the nuclear negotiations 
between Iran and the P5+1 are today stalemated after a decade 
of patient diplomacy. I think the prospect of securing a final 
deal is becoming increasingly remote. The wheels of diplomacy 
will grind on. There have been two extensions already granted. 
But it is time to acknowledge that the policy of engagement as 
pursued over the past decade was predicated on a series of 
assumptions that have proven logical in concept, but flawed in 
practice.
    As we reassess our next move, it will be wise to reconsider 
the judgments that underwrite our approach to an adversary that 
has, at the very least, proven rather elusive.
    I would say successive administrations have relied solely 
on financial stress to temper Iran's ambitions, nuclear and 
otherwise. At the core, this policy argues for steady economic 
pressure to change the calculus of the Islamic Republic, 
eventually leading it to concede the most disturbing aspects of 
its nuclear program. This was American pragmatism at its most 
obvious, as economics is thought to transcend ideology and 
history in conditioning national priorities. To be sure, the 
policy has not been without its successes, as it solidified a 
sanctions regime that compelled Iran to change its negotiating 
style. Still, what was missed was that the Islamic Republic is 
a revolutionary state that rarely makes judicious economic 
decisions. In fact, the notion of integration into the global 
economy is frightening to the regime's highly ideological 
rulers, who require an external nemesis to justify their 
hegemony power.
    Among other assumptions that I think we have misdiagnosed 
is the changes in Iran's political landscape since 2009. The 
fraudulent 2009 Presidential election, in my view, was not a 
passing event, but a watershed moment. Watershed moment means 
after which things are very different than anything that went 
before. Iran today is a government very similar to other Middle 
Eastern dictatorships. The forces of reform have been purged 
from body politic, leaving behind like-minded actors.
    While many in the West continue to see Iran as a country of 
quarreling factions and competing personalities, the Iranians 
themselves talk of the system. This is not to suggest that 
there are no disagreements among key actors, but the system has 
forged the rough consensus on issues such as repressing dissent 
at home, pursuing an aggressive policy abroad, and even 
sustaining the essential trajectory of the nuclear program. The 
U.S. misdiagnosis was most glaring, in my view, when Hassan 
Rouhani assumed the presidency in 2013. Rouhani's election was 
considered a rebuke to Supreme Leader Ali Khamenei and his 
ideological presumptions, and many in Washington convinced 
themselves that by investing in Rouhani they could usher in an 
age of moderation in Iran. Suddenly, an empowered Rouhani would 
make important concessions on the nuclear issue and even 
collaborate with the United States to steady an unhinged 
region. Again, missing from all this is how the system had come 
together in the aftermath of 2009, to destroy the democratic 
left. We have sought to manipulate Iran's factions at the 
precise time when factionalism is no longer the defining aspect 
of Iranian politics.
    Yet another American misapprehension was refusing to listen 
to what the Iranians were actually saying. The United States 
has offered Iran a number of concessions such as the 
recognition of its enrichment and practice. It was hoped that 
those concessions would cause Iran to settle for a modest 
program. Thus symbolic offerings from the West would diminish 
Iran's expansive nuclear appetite. In this case, we refused to 
listen to what Iranians were saying, namely that they want an 
industrial-size nuclear program in public and private. Thus 
far, we have made concessions in that particular sense.
    Iran will not easily be deterred from its approach. A 
strategy of coercion must move beyond imposing financial 
penalties as Chairman Royce suggested. Iran must feel pressure 
on many fronts. The Obama administration, in my view, would be 
wise to mend fences at home and rehabilitate our better 
alliances in the Middle East. It is important for Iran to see 
no division in its efforts to exploit the differences between 
the White House and the Congress. The President would be wise 
to consult with Congress on various legislation moving forward. 
Both parties have equities that need to be taken into 
consideration. I think they can be in a genuine conversation 
between the Executive and Legislative Branches.
    Finally, let me say, there is nothing magical about the 
July deadline. If there is an agreement by July, Iran will be 
left with a substantial nuclear infrastructure that is destined 
to grow over time. If there is no agreement in July, Iran will 
be left with a substantial nuclear infrastructure that is 
destined to grow over time, perhaps at an unsteady pace. 
Therefore, we need to develop a long-term strategy for 
developing how to maintain, contain, regulate Iran with nuclear 
material that is substantial and growing. And that is a long-
term challenge that I think the Executive Branch and Congress 
can come together and actually craft. Thank you.
    [The prepared statement of Mr. Takeyh follows:]
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you, Doctor. Mr. Einhorn?

   STATEMENT OF THE HONORABLE ROBERT EINHORN, SENIOR FELLOW, 
       FOREIGN POLICY PROGRAM, THE BROOKINGS INSTITUTION

    Mr. Einhorn. Chairman Royce, Congressman Sherman, other 
distinguished members of the committee, I want to thank you for 
this opportunity to testify on the Iran nuclear issue.
    The Obama administration is seeking an agreement that would 
lengthen to at least 1 year the time it would take Iran to 
produce enough nuclear material for a single nuclear weapon. It 
is also seeking rigorous monitoring measures that would enable 
the IAEA to detect at the earliest possible time any Iranian 
attempt to break out of an agreement at either declared or 
covert locations. The goal is to make Iran's potential path to 
nuclear weapons lengthy and readily detectable so that the 
United States and others would have plenty of time to intervene 
decisively in order to stop them, using economic or military 
means.
    Negotiations between Iran and the P5+1 countries have made 
significant progress over the last year. But Iran has showed 
little flexibility on some central issues, including enrichment 
capacity and the duration of any comprehensive agreement. So it 
is understandable that many Members of Congress support new 
sanctions to pressure the Iranians to accept the compromises 
needed to make a deal possible.
    I agree that economic pressure brought the Iranians to the 
negotiating table and continued strong pressure will be 
essential to get them to accept an agreement that meets U.S. 
requirements. But enacting new sanctions legislation at this 
time, even if sanctions would not be imposed until a later 
date, could have the unintended effect of hardening Iran's 
negotiating position and weakening international sanctions.
    Iranians are sharply divided on the nuclear issue. 
Opponents of a deal would seize on any new U.S. sanctions 
legislation to claim that the United States has no intention of 
ultimately removing sanctions. They would argue internally that 
an agreement would therefore be pointless and they would oppose 
Iranian flexibility in the negotiations. So even if the 
Iranians don't walk out of the talks as they have threatened to 
do, new sanctions legislation could reinforce Iranian rigidity 
and increase the likelihood that negotiations will fail.
    New sanctions legislation could also undermine the unity of 
the International Sanctions Coalition. So far that coalition 
has stayed together because Iran has been seen as the main 
impediment to the negotiations. Key countries would regard new 
sanctions as premature and unnecessarily provocative. The blame 
for any impasse or breakdown could shift to us and support for 
tough sanctions could begin to unravel. Not only is the new 
legislation potentially counterproductive in terms of Iran's 
negotiating posture and the unity of international sanctions 
efforts, it is unnecessary.
    Iran continues to feel immense economic pressure from 
existing sanctions which remain intact under the Joint Plan of 
Action and the steep drop in the price of oil serves as an 
additional sanction, depriving Iran's economy of another $11 
billion over the next 6 months. Under the interim deal, Iran 
each month receives $700 million of its own oil revenues that 
have been held in restricted overseas accounts. Compare that to 
the $40 billion in oil revenues that Iran lost in 2014 because 
of the sanctions.
    So if new sanctions legislation is neither necessary, nor 
likely to have its intended effect, how can we get the Iranians 
to accept a nuclear deal that meets our requirements? First, we 
should be patient. Our negotiators should continue to work 
toward concluding a deal along the lines we have already 
proposed by the June deadline. But they need not be in a rush. 
If Iran remains reluctant to compromise, the U.S. and the P5+1 
partners can afford to wait. Some have argued that the interim 
deal is advantageous to Iran, that the Iranians are stringing 
us along, using the interim deal to play for time. I find this 
argument hard to understand. Under the JPOA, Iran's nuclear 
program is frozen in most meaningful respects. And Iran's 
economy continues to suffer under punishing sanctions, 
amplified now by the drop in the price of oil.
    It is Iran, not the United States, that is the clear loser 
the longer the JPOA remains in effect. No one wants to prolong 
the negotiations indefinitely, but if a sound agreement cannot 
be reached by the end of June, the option of another extension 
should not be ruled out.
    Second, the administration should do whatever it can to 
maintain and enhance the effectiveness of existing sanctions. 
The Treasury Department should continue its aggressive efforts 
to remind governments and companies around the world that 
sanctions remain in place and that Iran is not open for 
business.
    Third, even while negotiations are underway, the 
administration should work with the Congress and its foreign 
partners on a Plan B, a plan for the eventuality that no 
agreement will be reached. The Legislative and Executive 
Branches should begin now to jointly develop sanctions 
legislation that would be ready to be voted and immediately 
implemented in the event that the talks end without agreement. 
The administration should also begin now to consult key foreign 
partners on the ratcheting up of sanctions as well as on the 
strengthening of cooperative defense plans that may be 
warranted in the event of a breakdown of negotiations.
    Of course, it is impossible to know whether Iran will 
eventually come around to the realization that without a 
nuclear deal its economy will continue to suffer and its 
international isolation will persist. President Obama puts the 
odds at less than 50-50. If we cannot achieve an agreement that 
meets our requirements, then we will have little choice but to 
turn from diplomacy to other means of preventing Iran from 
acquiring nuclear weapons. And if diplomacy fails, it is 
critical that we have the strong international support 
necessary for whatever course we decide to take. We should 
therefore avoid actions at the present time that would widely 
be seen as undermining prospects for an agreement. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Einhorn follows:]
    
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. I have got two questions, but one of Iran's 
paths to a bomb would be through its plutonium reactor at Arak. 
And indeed, in reading through some of your statements, Mr. 
Einhorn, you have referred to this reactor as a plutonium bomb 
factory.
    As I recall, this was the issue that the French were so 
concerned about when that negotiation began, when it looked 
like we were going to into an interim agreement in November 
2013. They raised the specter of this. And the administration 
insists that these negotiation will cut off all of Iran's paths 
to a bomb. But I was interested when I read the testimony of 
Ambassador Edelman, you say that the administration has 
relinquished its effort to shut off Iran's plutonium path to a 
bomb by converting its heavy water reactor at Arak.
    And I was going to ask you what is the state of play here, 
Mr. Edelman?
    Mr. Edelman. Well, I suspect that Bob has a better fix on 
what the exact state of play is than I do, but it is clear that 
the administration has retreated to a different standard which 
is to try and get the reactor rearranged, the core of the 
reactor rearranged in order to limit the production of 
plutonium rather than convert the reactor entirely.
    Chairman Royce. Mr. Einhorn?
    Mr. Einhorn. I have no doubt that the Arak reactor was 
designed in order to become a plutonium factory for nuclear 
weapons. I have no doubt about that.
    But what has happened in the negotiations is that 
apparently Iran has agreed to redesign the reactor to reduce 
very, very substantially the amount of plutonium that is 
generated in the spent fuel. It was originally designed to 
operate on natural uranium which increases the weapons 
plutonium content of the spent fuel. They have apparently 
agreed to use enriched uranium fuel which greatly reduces the 
amount of plutonium produced annually to a level that makes it 
infeasible to try to break out using the plutonium route.
    There are still disagreements. The U.S. would like to make 
this a lightwater reactor which makes it less reversible and 
the Iranians don't want to do that.
    Chairman Royce. But they are not going to do that. They are 
going to reduce it, but not eliminate it.
    Mr. Einhorn. No, you can't. Any reactor produces plutonium. 
The question is how much. And the way they have agreed to 
redesign it there are very low amounts.
    Chairman Royce. They will reduce the amount. The other 
question I had was on the expiration date, or the sunset as it 
is called in the agreement. And last year, the committee heard 
testimony from a former State Department official who described 
the term ``comprehensive solution'' as a complete misnomer 
because according to the interim agreement, the restrictions 
put in place through such a comprehensive solution will only 
remain in place for a specific amount of time, so it can't be 
comprehensive. It is not permanent.
    And as he pointed out, the comprehensive solution looked at 
that way is just an interim step itself. It is going to be an 
interim step, a temporary step. It is going to expire and after 
which Iran can engage on industrial scale enrichment. And it 
could then undertake activities that Holland, Japan, and Brazil 
are taking today.
    So Mr. Einhorn, you had testified that a sound agreement 
would last about 15 years in your viewpoint. But Mr. Hannah 
notes that the sunset clause kicks in even if Iran is led in 
the future by the equivalent of an Ahmadinejad 2.0 or even if 
it is still the top sponsor of terrorism. So as Iran continues 
to reach to dominate the region, what is an acceptable length 
of time for an agreement? I will just ask the panel since this 
is simply going to be an interim agreement. And after that, it 
is going to be under their insistence, and of course, they are 
looking for a time frame, I guess, less than 10 years. But I 
will just tell you I remember the North Korean nuclear 
framework agreement. That doesn't seem that long ago and that 
was 20 years ago that we were talked into that. We see what the 
results were.
    Mr. Einhorn. Mr. Chairman, in 2008, the P5+1 countries 
agreed that when Iran convinced the international community 
that its program was peaceful, then it would be able to pursue 
a program like any NPT party that is compliant. That was 
already in 2008.
    I think the sunset provision frankly is unfortunate. I 
would like to have it a permanent agreement, but that is water 
under the bridge. But I think it is important to make it as 
long as possible and I say 15 years at a minimum.
    Chairman Royce. Yes.
    Mr. Einhorn. But it is important to recognize that even 
after 15 years, there will be very strong disincentives for 
Iran to go ahead and produce nuclear weapons. They would still 
face a very strong threat of not just economic sanctions, but 
military attack by the United States and its partners. So it is 
not as if they are swinging free and easy at that point. There 
would still be strong deterrent against them going that route.
    Chairman Royce. Other members of the panel?
    Mr. Takeyh. I will just say briefly on this, there is 
nothing permanent about this particular concession. One of the 
things that I suggested that the administration can do is go 
back and say upon the expiration of the sunset clause, Iran 
will still have to go back to the U.N. Security Council as a 
sort of a probationary hearing and they can determine whether 
it can then proceed toward industrialization of the program and 
they can make that determination based on an entire range of 
factors such as other aspects of Iran's behavior. But I don't 
think this should be an eighth time type agreement.
    Chairman Royce. Well, since the Supreme Leader says he 
wants 190,000 centrifuges, he is not thinking along the lines 
that you just articulated.
    Mr. Hannah.
    Mr. Hannah. Mr. Chairman, I didn't agree with the decision 
in 2008, although that clearly didn't commit to any kind of 
deadline and time frame. The most I would have done is agree 
that we would have some kind of review committee at some point 
in time, perhaps after 15 years to look at and examine the 
question. But I think in the real world the absence of linkage 
between any kind of special inspection and verification regime 
and restrictions that we impose on Iran to divorce that from 
the basic heart and soul and nature of that regime and its war 
with the United States and Israel and our other allies in the 
regime, I just think it is folly, it is dangerous. And I think 
we will rue the day if we allow that to proceed.
    I think I agree with Bob that this has been given away 
already by this administration and I don't think it can be 
reversed at this point in time without doing damage in the 
negotiations before you probably get a new administration in 
office.
    Chairman Royce. So we will go to Ambassador Edelman. My 
point about the 190,000 centrifuges that the Supreme Leader 
says is his objective, that would be okay under this scheme. I 
mean if it goes 10 years after that, he is in a position to 
move forward with his goal, right?
    Mr. Edelman. That is my understanding, Mr. Chairman. Like 
the other panelists, and I guess we are unanimous, all of us, I 
think, lament the fact that this is now a part of the 
negotiation. From my point of view, as a result of that, the 
only acceptable date that would be reasonable would be 20 
years. But, partly because of the reasons that you just 
suggested in terms of the scope of ambition that the Supreme 
Leader has declared for the program.
    I worry about the regional security implications of this 
going forward, because we will likely be leaving Iran as a 
threshold state. And that means all the other states in the 
region, notably including our allies, Israel, our Sunni Gulf 
Arab allies, are going to have to make a whole series of 
judgments about their security in a world where Iran is much 
closer to a nuclear weapon than it was in 2008, for instance. 
And I think that is going to have, as Mr. Hannah suggested, 
some very, very serious consequences for the region.
    Chairman Royce. Thank you. Ambassador. Mr. Sherman.
    Mr. Sherman. Let us not get carried away on one thing. 
Congress has agreed to nothing. No treaty has been submitted to 
this Congress for ratification. And in 2017, the Government of 
the United States is free to take whatever action it chooses at 
that time. Even if Congress were to pass a resolution in 
support of some agreement, not likely, that is binding only on 
that Congress.
    If Iran wants a permanent agreement with the United States, 
let it agree to something good enough to gain ratification of 
the United States Senate as a treaty. And we have put the world 
on notice by publishing our Constitution, that something signed 
as a memo with one leader is perhaps morally binding on that 
leader.
    Mr. Einhorn, your comments, I do want to mention first I 
think you have hit on the one best argument against Congress 
passing sanctions now. And that is the most influential 
American in the world, President Obama, has pretty much said 
that if Congress passes sanctions now that the rest of the 
world shouldn't follow and should regard us, the United States 
Government, as unreasonable. It may be a self-fulfilling 
prophecy. It may very well be that by announcing to the world 
that if Congress' acts were unreasonable, it ties our hands. I 
don't think it does, but it might.
    You also, I think, well laid out the 1 year objective that 
we have in these negotiations, but keep in mind once the 
sanctions are lifted, Iran moves all of its foreign currency 
into Chinese banks, Cayman Island banks, tens of billions of 
dollars. And gets years of breathing room. After that, if they 
were to break out and we were to apply new sanctions, those 
sanctions wouldn't bite for a year. So the only possible action 
would be military action and I'm not sure this country would 
take military action. But remember, Iran gets to choose the 
time. So they can wait for the next Ukrainian crisis and then 
see whether the United States will take military action. 
Sanctions cannot go from zero to biting in 1 year, especially 
if foreign currency reserves have been moved.
    Doctor, what is Iran's July 1 plan? Would they want a 
further extension and does that sell to the Iranian political 
powers? Are they ready with a breakout? What do they do on July 
1, assuming they haven't signed an agreement with President 
Obama?
    Mr. Takeyh. I am not part of the Council, but it seems to 
me that they would be prepared for extension of the talks 
beyond that. For how long, I am not sure. Because increasingly, 
I think the regime will come under pressure from the Atomic 
Energy Organization and others for introducing new technologies 
that at this point are prohibited under the Joint Plan of 
Action. So at some point, the necessity of extending the talks 
and the necessity of technologically forging ahead of the 
program are likely to collide. So there is a time when Joint 
Plan of Action doesn't make sense for Iran's nuclear agencies 
who are planning to advance their program.
    Mr. Sherman. And if they don't enter into an extension, and 
I realize they don't clue you in on this, but you are more 
clued in than I am, what do they do?
    Mr. Takeyh. I don't sit around and worry too much about the 
breakdown of negotiations that have thus far lasted 13 years. I 
think these negotiations go on in some way in some form.
    Mr. Sherman. Thank you. I want to move on to Mr. Hannah. 
The question is what additional sanctions would actually bite? 
The most ideal and probably the one we are most likely to adopt 
is we take the Menendez-Kirk sanctions and we put them on a 
glide path all the way to zero. That is to say we turn to each 
country and with a glide path not lasting too long, you can't 
buy any Iranian oil and still use the U.S. banking system.
    A second idea is that we fill the loophole in what we have 
already passed as far as government contracting and we declared 
all the major corporate conglomerates of the world that if you 
want even one--that all of your subsidiaries will have to abide 
by U.S. sanctions against Iran, not sell anything other than 
food and medicine, not buy any oil, if any of your subsidiaries 
won even one U.S. Government contract and we could further and 
make it state and local as well.
    Other than that, does anybody on the panel have any ideas 
what should be in a sanctions bill?
    Mr. Hannah. I do think the oil one is critical, 
Congressman, because as you know, and I think as you stated, 
the world doesn't need Iranian oil any more. Eight years ago 
under the Bush administration, when we had serious problems 
with sanctions, there was a strong----
    Mr. Sherman. I do have limited time. The chairman is 
indulging me a bit, but do you have anything on the list to 
add? I know how important that one item is. That is why I 
listed it first.
    Mr. Hannah. I think you could feasibly shut down transport 
going on, particularly shipping going in and out of Tehran. 
Ships that go into Tehran never get access to any American 
port. Possibly the same for air travel as well. Planes that go 
to Tehran get no access to American airports and American air 
space.
    Mr. Sherman. Interesting idea. Anybody else have an idea to 
add to the list?
    Mr. Edelman. I think, Mr. Sherman, you could add other 
sectors to the economy, construction. There are other things 
that we could do to make life even more difficult.
    Mr. Sherman. Please provide a more thorough answer, all of 
you, for the record. Shall I try and sneak in one more 
question?
    Chairman Royce. Sure.
    Mr. Sherman. Okay, one more question. Let us say it is 15 
years from now and Iran has not made extraordinary progress 
because we had such a great deal, but the deal is expired. They 
are signatory to not only the MPT, but the additional protocol. 
How quickly can they put together a stockpile of six weapons 
without being caught by the limited, intrusive investigations 
called for by the additional protocol? Does anybody have an 
answer?
    Or more generally, is the additional protocol good enough 
by itself to prevent Iran from having a successful, covert 
nuclear program? Don't all answer at once.
    Mr. Einhorn?
    Mr. Einhorn. The additional protocol, I think, is kind of 
the gold standard now for the international inspections. It is 
not good enough certainly during an agreement for 15 or 20 
years. I think it has to go well beyond. But I think it is 
important to remember one thing, that at least during the 
agreement, a covert program doesn't have one facility. It has 
maybe five or six different facilities. It takes 1 or 2 or 3 
years to construct that covert program. So getting away with 
cheating at a covert location isn't so easy.
    But there are elements that should continue beyond the 
expiration date as well. For example, the Iranians shouldn't be 
able to have a reprocessing plant. There are other kinds of 
things the administration should press on them to accept that 
go beyond the additional protocol.
    Mr. Sherman. My time has expired.
    Chairman Royce. We go to Ileana Ros-Lehtinen, chairwoman of 
the Middle East Subcommittee and long active in this issue of 
Iran sanctions.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. As we 
heard this morning, the Senate has officially stated that no 
new sanctions legislation will be brought up for a vote until 
late March. And I think it is important to remember that the 
first sanctions that the U.S. began imposing against Iran were 
terrorism related. And that is being largely neglected as these 
ill-conceived, these secret and misguided nuclear negotiations 
continue to be extended for reasons passing understanding. In 
fact, as the negotiations continue, Iran support for terror has 
not waned, has actually increased.
    Tehran calculates that President Obama is more willing to 
blame Congress for the talks failing than he is likely to blame 
this murderous and dangerous regime. So the result is that the 
Obama administration capitulates to Iran's demands and we get 
nothing, while Iran's dangerous actions continue to spread. And 
we need to look no further than the President's own so-called 
success story in Yemen.
    Just a few days ago, the Iran-backed Houthi rebels arrested 
control of Yemen's capital and its government, giving Iran 
effective control over four Arab capitals. Yet, the 
administration carries on, alienating our allies, appeasing our 
enemies, even enlisting Iran as an asset. Just think about 
that.
    In the battle against al-Qaeda in Yemen, and ISIL in Iraq 
and in Syria, these are situations for which Iran's terror 
proxies are responsible. And now the administration finds 
itself on the same side as Iran. Yet, all of this is off the 
table. It is not part of the nuclear negotiations. And the 
reality of the situation belies the President's narrative. The 
President threatens to veto Congress' attempt to hold Iran 
accountable, yet deadlines are repeatedly missed. Iran 
continues to impede the IAEA's verification efforts at every 
turn. And there are still many numerous other issues regarding 
the possible military dimension of Iran's nuclear weapons 
program.
    Recently, it was reported that Iran, along with North 
Korea, is helping to build missile sites and a nuclear reactor 
in Syria, likely to outsource to enrichment capabilities to its 
proxy in Damascus, which would not be a violation of the JPOA. 
Iran continues its research and development of more advanced 
centrifuges, yet that also is not a violation, according to 
this administration. Iran is giving oil to Syria, not a 
violation. And it was announced that Iran, with the help of 
Russia, is actually building two new nuclear reactors and also 
somehow that is not a violation. And of course, Iran's 
continued progress on its ICBM program, its spread of terror, 
its support for terrorist groups, and its even-worsening human 
rights records, were never on the table for discussion to begin 
with.
    So what exactly will the administration consider a 
violation? The implication for these nuclear negotiations are 
far reaching and we cannot be willing to carry on with this 
farce while Iran perfects its enrichment, its weaponization, 
its missile programs.
    So to the panel, does any of this indicate that Iran is 
intent on actually reaching a nuclear agreement or is the 
regime use the guise of diplomacy to further its ambition 
including creating a nuclear weapon? And lastly, last week, 
Tony Blinken, as you saw in his testimony, confirmed what most 
of us already knew, that the administration's goal is not to 
prevent Iran from ever getting a nuclear weapon. It is merely 
to delay that action.
    Even if we are successful in delaying nuclear capability 
for Iran to a year or 2, will that be enough to assuage other 
countries in the region like the Saudis, the Emiratis, from 
seeking their own nuclear capability? And do you believe that 
the administration will be willing to walk away from the 
negotiations if the status quo remains? To anyone who wishes to 
answer.
    Ambassador.
    Mr. Edelman. Ms. Ros-Lehtinen, it is very hard to quibble 
with your characterization of where we are. I would say on the 
question of whether--you were talking about Mr. Blinken saying 
that we are likely to have an extension.
    Ms. Ros-Lehtinen. Correct.
    Mr. Edelman. I think that is the most likely outcome in 
part, because the answer to the first part of your question, 
``Has Iran made a strategic decision to forego a nuclear 
weapons program?'' I think the answer is pretty clear. They 
have not. On the contrary, they feel that they have now 
successfully impressed upon the administration through the 
statements of the Supreme Leader, etcetera, that they must be 
allowed to have an industrial scale enrichment program at the 
end of this process. And so we have seen a demand of the 
international community that originally was a complete freeze 
on enrichment. Then we were going to have a couple of hundred, 
then a couple of thousand. Now we are talking about maybe as 
many as 9,000 centrifuges.
    Ms. Ros-Lehtinen. Nine thousand.
    Mr. Edelman. Perhaps rearranged, perhaps unplugged, 
etcetera. We don't know yet what the outcome will be. The 
Iranians have 19,000 now. If you split the difference, you end 
up with about 9,000. And I think the answer to the question is 
no, they have not given up their desire and we have given up 
our objective of preventing them from having that capability. 
Instead, as we have discussed on this panel, looking at 
preventing them from breaking out or sneaking out within 1 
year. That is where I am afraid we are.
    To your question about how will others in the region see 
this, I think it is going to be very hard, particularly for a 
country say like the United Arab Emirates, which signed a 123 
agreement with the United States to have its own nuclear power, 
completely foregoing any capability for enrichment, to look 
across the Gulf and see Iran allowed by agreement with the 
United States to have thousands of centrifuges, whatever the 
actual number ends up being and a capability to continue to 
enrich without calling into question the wisdom of their 
earlier agreement with the United States and the reliability of 
the United States, the guarantor of their security. And I think 
others in the region will make similar kinds of judgments.
    Chairman Royce. Thank you, Ileana. Mr. Ted Deutch, ranking 
member of the Middle East Subcommittee. And I mentioned the 
horrendous human rights situation in Iran in my opening 
statement. I should add Mr. Deutch has long been active on 
behalf of his constituent, Mr. Levinson, and we would like to 
see a resolution to his case, as well as those of other 
Americans, including and imprisoned Washington Post reporter, 
and a former Marine, Amir Hekmati.
    And on that note, I would ask unanimous consent to add a 
letter from the Hekmati family into the record. And Mr. Deutch 
is recognized.
    Mr. Deutch. Thank you, Mr. Chairman, and thank you for 
making that point. Thank you for pointing out that as part of 
these talks while I know the fate of Bob Levinson, my 
constituent, and the others who are in Iran continues to be 
brought up, I think it is appropriate for us to have some 
expectation that as these talks continue, to see some good 
faith from the Iranians on these issues at least would be 
helpful to those of us who have concerns about the broader 
deal.
    I want to start with a comment that I heard on one of the 
Sunday morning shows that if Congress--the suggestion was made 
that if Congress takes any sort of action at all, that Iran 
will be able to go to the world and say that the United States 
negotiated in bad faith. I would point out to all my colleagues 
here and to the administration something they know better than 
anyone, that it is inconceivable that anyone could make an 
argument that the United States is not negotiating in good 
faith when we entered into a JPOA which was extended once and 
which was extended again. And to suggest that Congress being 
involved in this process somehow suggests bad faith is just 
inaccurate and I think it is important for us to make that 
point. That is number one.
    Number two. Just within the past few days, the IAEA 
director, speaking in Indonesia, said that in his address to 
the University of Indonesia, he said that ``we are not in a 
position to provide credible assurance about the absence of 
undeclared nuclear material and activities in Iran, and 
therefore, to conclude that all nuclear material in Iran is in 
peaceful activities. In addressing the Iran nuclear issue, two 
things are important,'' he said. ``First, with the cooperation 
of Iran, the agency needs to clarify issues with possible 
military dimensions to the satisfaction of member states. Also, 
Iran needs to implement the additional protocols so that the 
agency can provide credible assurance about the absence of 
undeclared nuclear material and activities in Iran.''
    The question I have is with everything on the table, Mr. 
Einhorn you said that it is in our interests that Congress 
shouldn't act, that it is in our interest to get another 
extension, that the Iranians are being hurt more. How is it 
that we shouldn't expect that at some point in this process in 
order for us to continue these talks we should require that 
Iran come clean on the possible military dimensions of their 
program and that they fully work with the IAEA to address their 
concerns? Why shouldn't that be something that we demand before 
we consider any other concessions going forward?
    Mr. Einhorn. Thank you, Congressman. Let me just mention 
and actually clarify, I wasn't saying that I support another 
extension. What I was saying is, if necessary, we can afford 
it. We should push for an agreement as soon as we can get a 
sound agreement. But if that is not possible, because of 
Iranian intransigence, we can afford another extension because 
the current interim arrangement is in our interest, not in 
Iran's interest.
    Mr. Deutch. Mr. Einhorn, I like your answer to the 
question, but I would, given what you just said, I would ask 
also if you could explain--and I understand the distinction 
that is made between the relief that is being provided and the 
money that is being held. But at some point, $700 million a 
month starts to really cut in to that $40 billion. And number 
two, as anyone perceives it, $700 million a month in 
concessions can't really be described as inconsequential.
    Mr. Einhorn. Every month, the restricted accounts build up 
further, so they get deeper in the hole. Yes, they get $700 
million a month back, but I think it is something like almost 
$2.5 billion that gets deposited in these restricted accounts 
that they can't get access to. So they are getting deeper into 
the hole. The $700 million doesn't mount up. What mounts up is 
the amount that they don't have access to.
    Mr. Deutch. I would like you to address, if you could, 
perhaps after I am finished since I am running out of time, the 
PMD issue and maybe all of the members will be able to get back 
to it, but I would just conclude by pointing out that if there 
is a sense that it is okay to come up with a sanctions bill now 
that won't go into effect unless there is a breakdown in talks 
or unless Iran walks away, that that is exactly what this 
Congress has been trying to do all throughout, number one.
    And number two, to those who are critical of the notion 
that we should increase pressure in order to have a stronger 
negotiating position with Iran, I would just ask that we stop 
debating the danger posed by the United States Congress and we 
refocus on the danger posed by a nuclear-armed Iran, one that 
would spark a nuclear arms race in the region, that would make 
Iran's proxies in Syria and Lebanon and Iraq and Yemen more 
dangerous, that would strengthen the terrorist groups that 
threaten the region and the world that Iran supports and 
controls. That is why some of us believe that since the IAEA 
isn't satisfied, we don't know about the military dimensions of 
the program. We don't know about what else may be happening 
inside Iran. And all the while, there may be penalties that 
Iran feels on the oil front, but it hasn't slowed them in their 
support of their terror proxies around the world. We need to 
call an end to this at some point.
    Ms. Ros-Lehtinen [presiding]. The gentleman's time has 
expired.
    Mr. Deutch. Thank you.
    Ms. Ros-Lehtinen. Mr. Chabot of Ohio.
    Mr. Chabot. Thank you. I want to thank you, Madam Chairman, 
for calling this hearing and I want to echo the concerns that 
have already been expressed this morning about ongoing nuclear 
negotiations with Iran. I am afraid that if the Obama 
administration reaches a deal with a Iran, it is likely to be a 
really bad one because we have already conceded far beyond the 
parameters of what would be an acceptable agreement in my view.
    Now just a couple of questions. Various reports indicate 
that negotiations remain deadlocked over fundamental issues 
such as the size of Iran's enrichment capability. At this point 
it is clear that Iran is stalling so that it can continue to 
absorb the $700 million per month in hard currency that it is 
receiving as a result of the sanctions relief. In order to 
change the current trajectory, I believe we need to increase 
the pressure on Iran because Iran does not believe it has much 
to lose from dragging on this negotiation process. That is my 
view.
    Why should we have any confidence in the administration's 
negotiations with Iran? Isn't it reasonable to conclude that 
Iran is benefitting from the sanctions as I stated, the relief, 
pocketing the $700 million per month in hard currency and just 
stringing the U.S. along as long as possible, and in the end, 
we are either going to end up with no deal or a lousy one? Mr. 
Edelman?
    Mr. Edelman. Well, as I said in my statement, Mr. Chabot, I 
am also very worried about the trajectory of this negotiation. 
I think if you look back, again, as far back as 2003, what one 
sees is the international community's red line amounting to 
kind of a serial concession to Iranian intransigence. So for 
instance, in the 2003-2005 period, there was a freeze on 
enrichment activity and the Iranians, the then nuclear 
negotiator for Iran, subsequently explained in a book saying it 
was a tactic that the Iranians used in order to work out some 
of the difficulties, the technical difficulties they were 
having in their program. That Iranian nuclear negotiator is now 
the President of Iran, President Rouhani.
    So I think not only does one have to worry about the 
current state of the negotiations, but really the whole history 
here has been one of Iranian intransigence leading to further 
concessions. And if you are sitting in Tehran assessing this, 
the conclusion you would draw from this is the longer you hold 
out, the more extensions you get in the negotiations, the more 
concessions you are likely to win.
    Mr. Chabot. Thank you. Mr. Takeyh, let me turn to you. I am 
already down to only 2 minutes left. You said we should listen 
to what they say, and I tend to agree with you on that. We had 
the previous leader say that he wanted to wipe Israel off the 
map. We have the current leader who still chants ``Death to 
America.'' Iran has said quite clearly on a number of occasions 
that they are determined to have a nuclear industrial program. 
Why should we have any confidence that negotiations with these 
people will end well?
    Mr. Takeyh. I would say the way the negotiating strategy 
has taken place, paradoxically, it makes an impasse more 
likely. Every time, as I think Eric said, we have met Iranian 
intransigence, we have adjusted our red lines. For Iranians to 
accept our current set of concessions means they would have to 
forego a future set of concessions. As a result, there is sort 
of a impasse built into these talks.
    The policy in the summer of 2012, as Bob knows, was stop, 
ship, shot. That clearly is not the policy today and that 
clearly was an aspect of the Joint Plan of Action. So as the 
red line has moved, and it has moved frankly for a decade 
across administrations, Israeli red lines have moved. The 
Iranian strategy of being patient and has a measure of 
forbearance has yielded, unfortunately, nuclear concessions.
    Mr. Chabot. I am almost out of time. Mr. Einhorn?
    Mr. Einhorn. Congressman, you mentioned that Iran would 
simply pocket $700 million a month. Let me just point out that 
for every month they lose about $2.14 billion worth of oil 
revenues, about $15 billion over the next 6 months and that 
they are going to take a hit because of the reduction in the 
price of oil. As time goes on, they get deeper in the hole.
    Mr. Chabot. I am almost out of time. Let me just conclude 
by saying that my concern is that the Obama administration is 
so desperate for a deal that Israel and our allies in the 
region and ultimately the United States itself, our security is 
in jeopardy. And that is why I am so disappointed, concerned, 
and this has been a disaster as far as I am concerned. I yield 
back.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot. Ms. kelly of 
Illinois.
    Ms. Kelly. Thank you, Madam Chair. For years, Iran used a 
secret facility at Fordow, built into the side of a mountain to 
advance their nuclear program. We know Iran has the history 
with the covert program. A potential deal with Iran rests on 
our assumption that Iran is not continuing an overt nuclear 
program. What steps need to be taken to ensure that they are 
not racing toward a bomb at a covert facility?
    Mr. Hannah. Thank you, Congresswoman. I would just say that 
in terms of what my testimony was about and trying to stiffen 
the administration's position to mitigate the risk that I think 
we run of the kind of the deal that we are heading towards, I 
think we really need to pay attention to the verification and 
inspection regime. I think the IAEA additional protocol is not 
sufficient. I do believe we need a special inspection and 
verification regime for Iran. I think the Congress should 
insist on that. If it could it put in a joint resolution, I 
think it would be fantastic. But it essentially has to be what 
South Africa did when it gave up its nuclear weapons: Evidence 
that it had truly made a strategic decision to give up its 
nuclear weapons and agree to inspections that would be as close 
to the ideal as possible of any time, anywhere, anyone you want 
to interview you get access to. And I think that would be a 
very good barometer of whether or not the Iranians have, in 
fact, made a strategic choice to give up their ambition to have 
nuclear weapons.
    Ms. Kelly. Thank you.
    Mr. Edelman. Ms. Kelly, if I could just add to my 
colleague's comment, several members have raised the issue of 
the past military dimensions of the Iranian program. And I 
think it is absolutely incumbent on the administration to make 
sure that the IAEA gets satisfaction on this before we reach a 
final agreement because, for the life of me, I don't understand 
how one would begin to design the kind of inspection regime 
that John was just talking about until we have gotten to the 
bottom of all of the suspected military dimensions of the 
Iranian program.
    Mr. Takeyh. I will just say one thing before yielding to 
Bob. There is a lot of discussion about the type of inspection 
regime that should accompany an agreement. IAEA does not have 
satisfactory access to Iranian nuclear facilities today, as 
acknowledged by IAEA reports. There has been a work plan 
negotiated between IAEA and Iran that remains incomplete. The 
first work plan was negotiated in 2006, 9 years ago. So at the 
very least the negotiators should demand that IAEA complete the 
work plan and Iran give access today, not as a component of a 
prospective agreement.
    Mr. Einhorn. Can I say that I agree with John that the 
additional protocol is not enough. We have to have what I call 
additional protocol plus. We have to have much greater access. 
We have to have access to military installations. The Iranians 
are resisting this. We have to insist on the ability to go to 
military installations.
    The IAEA has to be satisfied with Iran's record of the 
past, these possible military dimensions. I don't think it is 
going to be possible to learn everything about the past, but we 
need to insist on knowing enough about the past so we are 
confident that those activities are not continuing in the 
present and will not continue in the future.
    Ms. Kelly. How will we know what enough is? What will be 
that measure to know what enough is?
    Mr. Einhorn. Well, it is a combination of what we hear from 
them about the past, plus what we are prepared to--what they 
are prepared to agree to in terms of intrusive measures going 
forward. I think the combination of the two would hopefully 
give us the confidence that they don't have a covert program.
    Ms. Kelly. Any other comments? Thank you. I yield back.
    Mr. Connolly. Would my colleague yield?
    Ms. Kelly. Yes.
    Mr. Connolly. Thank you. Thank you. Mr. Hannah, I really am 
struck with your suggestion because it just seems to me 
Congress is once again probably going down a rather feckless 
road. It makes us feel good. It allows us to pound our chest 
and prove our bona fides, but it is not efficacious. The idea 
of an inspection regime modeled after, for example, South 
Africa, that kind of agreement is to me a very helpful thing 
for you to suggest. So that is definitely something I think we 
ought to be exploring frankly before we start going down the 
road of additional sanctions which could only probably probably 
queer the deal. And I don't think Congress wants to take 
responsibility for queering the deal. Do you want to comment?
    Mr. Hannah. Thank you, Congressman. On South Africa, I 
think it is also worthwhile knowing that despite the fact that 
South Africa up front made that admission and made that 
agreement to that kind of inspection regime incredibly 
intrusive, according to Olli Heinonen, the former IAEA deputy 
director for inspections in Iran, that took 17 years to verify 
everything that South Africa had and to make sure we had a full 
understanding of the South African program. Here, we are 
talking about at best, at best, 15 years for a regime that is 
still engaged in a lie that goes to the hear of what this 
negotiation is all about, that they continue to maintain that 
they have never had any kind of ambition to have nuclear 
weapons which will be----
    Mr. Poe [presiding]. The gentlelady's time has expired. The 
Chair will recognize the gentleman from South Carolina, Mr. 
Wilson, for 5 minutes.
    Mr. Wilson. Thank you, Judge Poe. And thank each of you for 
being here today. I think it has been very helpful. And 
Ambassador Edelman, your concerns about the course of 
negotiations with your background, this is really important for 
the American people to know.
    Additionally, to me, it is really unfortunate that this 
administration did not give, I believe, sufficient 
encouragement to the young people of Iran who years ago, just a 
few years ago, were seeking to rebuild a modern, advanced 
nation. We could have given encouragement. I will never forget 
the young accountant who bled to death as she was laying on the 
street. The people of Iran want better. And we need to be 
encouraging them.
    In regard to that, Mr. Hannah, what is your analysis of the 
logic to the President's negotiating strategy that the threat 
of stronger sanctions will drive the Iranians away, rather than 
compel them to make a better and real agreement? It seems 
illogical to me and many of my constituents in the reverse of 
reality.
    Mr. Hannah. I think it is unfortunate that the President, 
the way he has approached the issue of prospective sanctions. I 
think he is essentially bought into an Iranian narrative and I 
think up front in advance he is essentially granting legitimacy 
if Iran decides to act on prospective sanctions and walk away 
from this deal. They have essentially got the President of the 
United States more or less saying they would be justified in 
doing that, that he has been much tougher on the Congress than 
he has been on Iran in these talks. And I think the focus of 
sanctions, I don't believe it would lead Iran to walk away from 
these negotiations. If it did it would be only temporary. I 
think pressure is the only thing that has worked with the 
Iranian regime and I think pressure is our best means of 
getting a diplomatic settlement in this situation and actually 
avoiding war. Quite the contrary to what the President 
suggests.
    Mr. Wilson. Avoiding war and threat to America, our allies.
    Dr. Takeyh, Iran for decades has sponsored numerous 
terrorist attacks in places as far flung as Thailand, Beirut, 
New Delhi, Lagos, Nairobi, including the 2011 plot to 
assassinate the Saudi Arabian Ambassador to the United States 
and bomb the Israeli and Saudi Embassies in Washington. How can 
the United States trust such a government to keep any 
agreement? This is in the context of demonstrators in Tehran 
carrying signs in English proclaiming ``Death to America. Death 
to Israel.''
    Mr. Takeyh. I think that is a fair point. I would suggest 
that in Islamic republics' conception, international law and 
international norms are conspiracies, forged by the Western 
powers and inflicted upon it in an unfair and injudicious way. 
It is kind of difficult to suggest that Iran can be a member of 
the NPT in good standing while at the same time being a leading 
sponsor of terrorism. The two states cannot be cojoined in a 
sort of a logical construct. That is why I think once there is 
an agreement, the immediate challenge of it is detection of 
inevitable Iranian violations. And I am not quite sure how in 
the aftermath of an agreement you can deal with those 
violations in a sort of a systematic way with re-instructional 
sanctions and penalties because I think the inclination would 
be to have an American delegation meet an Iranian delegation 
and highlight those disagreements and those violations and 
presumably they take some corrective action. But I suspect if 
Iran does not violate its arms control agreement prospectively, 
it is the first time in history it has not violated 
international legal instrument.
    Mr. Wilson. That is incredible. Thank you. Additionally, 
the American people need to know as Iran is claiming or the 
regime, that this is for peaceful purposes, they are also, Mr. 
Einhorn, developing a ballistic missile capability. Already 
they have a capability of striking as far as Southeastern 
Europe, Greece, Bulgaria, Romania. And they are developing a 
greater ICBM. They have launched a satellite. In light of that, 
with this delivery system, should the long-term agreement 
include limitations on a ballistic missile capability?
    Mr. Einhorn. I think it would be good if there could be 
ballistic missile constraints in a nuclear deal. I don't think 
it is going to happen. The Iranians say that their missiles are 
for conventional weapons delivery, not for nuclear, so this has 
no part to play. I think we are going to have to pursue quite 
aggressively the question of Iranian ballistic missile 
capability, but separately from these negotiations. I think it 
is very important. I think the administration tries very hard 
to interdict procurement by Iran of equipment and technology 
for Iran's missile program. I think this should be a top 
priority. The ballistic missile defense programs we have we are 
working on with our European partners are designed to counter 
Iran's ballistic missile capability. But I think making it a 
part of the nuclear negotiations is going to be hard.
    Mr. Takeyh. I will just add one thing.
    Mr. Poe. The gentleman's time has expired. The gentleman's 
time has expired. Thank you. The Chair recognizes one of our 
new members from Pennsylvania, Mr. Boyle, for 5 minutes.
    Mr. Boyle. Well, thank you, Mr. Chairman. It is an honor to 
be on such an important committee. I am someone who is 
generally a supporter of the President and this administration. 
That having been said, I have a difficult time understanding 
the logic that if Congress were to act and say not sanctions 
today, but sanctions by a date certain if negotiations were to 
fail, that somehow that is unreasonable or somehow then we 
would be responsible for sinking these negotiations. When we 
were up against the November 24th deadline, and then we decided 
and agreed to yet another round of overtime to push things 
another 7 months, I think many reasonable people, who even 
might not have been supporters of sanctions at that time, came 
over to the view that clearly we cannot allow negotiations to 
go on indefinitely.
    George Mitchell, who successfully negotiated the Good 
Friday agreement in Belfast, talked about the importance of 
having a deadline for those negotiations because there were 
some issues that have been debated for hundreds of years and 
could go on being debated for centuries to come.
    So I have to say before I get to my question, I really 
disagree with the view that if Congress were to act and make 
clear what sanctions would be in the event these negotiations 
fail, I disagree that that would somehow be irresponsible.
    Now getting to the possibility of a deal, knowing that 
Rouhani is not the ultimate decider, he is not the great 
leader. That said, there does seem to be somewhat of a 
moderating force in Iran that is more concerned with ending the 
sanction regime and being an economic power rather than going 
down the military path.
    How much of a percentage of the Iranian regime do you think 
that represents? And frankly, how emboldened would they be even 
if there were a deal that they wanted to accept? What authority 
or power would they really have ultimately to be able to agree 
to that?
    Mr. Takeyh. On the ballistic missile issue, the U.N. 
Resolution 1625 has that which was negotiated in May 2010. I 
think there is one difference between President Rouhani and the 
office of the Supreme Leader. President Rouhani seems to 
recognize that Iran's economic situation is unlikely to improve 
without an arms control agreement. That particular logic is not 
obvious to the office of the Supreme Leader. But I would answer 
that by saying so what? So what does President Rouhani's 
recognition of that fact mean, given the fact that unlike 
President Ahmadinejad is not willing to buck the system? He is 
likely to remain within the parameters and red lines that are 
negotiated between his office and those of the Supreme Leader.
    So irrespective of that agreement, which I think there is 
some indication that there is, it is a disagreement without 
significant consequence.
    Mr. Boyle. Does anyone else have a comment on that? Well, 
before I yield back, I would just say something that I believe 
my colleague, Congressman Sherman said at the very beginning of 
these hearings. To the extent that we can do anything with hard 
power, but also with soft power to embolden moderating forces 
and modernizing forces in Iran, it is certainly in our interest 
and certainly seems there can be far more to do than what we 
have been doing.
    Do you have a comment?
    Mr. Hannah. Thank you, Congressman. Can I just ask the 
chair first if I could have entered into the record a new FDD 
Report, ``Foundation for Defense and Democracy, The Case for 
Deadline Triggered Sanctions on Iran?''
    Mr. Poe. Without objection, the document will be entered 
into the record.
    Mr. Hannah. Thank you, sir. What I would say, Congressman, 
is we have had this debate over time in the past with the 
Congress consistently saying that we need more leverage, we 
need more sanctions in order to get Iran to have any 
possibility of getting a deal with the Iranians. And 
consistently administrations have argued to the Congress that, 
in fact, no that really won't be helpful. They go too far. You 
will alienate our international partners and you will empower 
radicals inside of Iran who want to keep pushing that nuclear 
program forward.
    I would say we had a definitive answer to that argument 
when Congress finally went ahead and got the administration to 
agree to those crippling sanctions in 2012. By the time those 
went into effect in the middle of 2012, within a year, not only 
had the entire Iranian political system thrown upside down and 
the Supreme Leader allowing a more moderate, pragmatic face 
like Hassan Rouhani to come into power, but you also had Hassan 
Rouhani racing as fast as he could back to the negotiating 
table to try and halt the continued escalation of U.S. 
sanctions which was happening at that time. That, to me, is 
pretty good evidence that I think on these issues, Congress' 
judgment has been pretty good historically.
    Mr. Poe. The gentleman's time has expired. The Chair 
recognizes himself for 5 minutes. Thank you, gentlemen, for 
being here.
    In the State of the Union address, the President said this:

        ``Our diplomacy is at work with respect to Iran, where 
        for the first time in a decade we have halted the 
        progress of its nuclear program and reduced its 
        stockpile of nuclear material.''

That statement earned the President three Pinocchios from the 
Washington Post. It is not true. It is either a mistake or it 
is a falsehood. It seems to me that the United States and 
Western Europe in dealing with Iran and expecting some deal 
where we continue to back off sanctions, we are nothing more 
than gullible and playing the chamberlain on this issue. It 
seems to me that this hug diplomacy with Iran is like the West 
being the timid sheep and if we lay down with the jackal of the 
desert, we will become the mutton meal of the jackal.
    I want to ask you specifically about the statement of the 
President. Mr. Takeyh, would you like to comment on that 
statement?
    Mr. Takeyh. I will yield to Bob in a minute. I do think the 
Joint Plan of Action has imposed some interim restraints on 
various aspects of the Iranian program such as production of 
medium-range fuel and 20 percent and the installation of new 
centrifuges. And it hasn't addressed some other issues such as 
research and development which I think is particularly glaring.
    Now under the Joint Plan of Action, Iran had to maintain a 
threshold of w enriched uranium to some degree. Bob will know 
the number for sure. I think somehow they have gone above that 
at times. But I do think it has exercised some interim steps 
and restraints into the Iranian program.
    Mr. Poe. I have more questions and if we have time we will 
come back for the comments. I am glad you all are excited about 
answering these questions.
    Mr. Takeyh, you said that the Iranians have never--is that 
right, did you say they have never agreed or fulfilled an 
international agreement in the past? Is that what you said?
    Mr. Takeyh. I think it is the genetic propensity of the 
system to regard international law as an unfair imposition 
resulting from Western conspiracy.
    Mr. Poe. Have they ever agreed to an agreement?
    Mr. Takeyh. Compliance is always tentative.
    Mr. Poe. Compliance. So they have never complied?
    Mr. Takeyh. Compliance is always tentative.
    Mr. Poe. Tentative. All right. It seems to me that the 
policy of the Iran Government is reflected in the Supreme 
Leader's statement that it is the goal of Iran to destroy the 
United States and Israel in reverse order, Israel first, then 
the United States.
    As far as you know, has that policy, that foreign policy, 
changed? Ambassador.
    Mr. Edelman. Well, I defer to Ray who is more expert than I 
on Iran. But I think Iranian foreign policy has been from a 
strategic point of view rather consistent since the revolution 
in 1979. There have been lots of tactical shifts and moves back 
and forth, but the overall objective of the revolution's 
foreign policy I think has been consistent.
    Mr. Poe. Mr. Hannah?
    Mr. Hannah. I think the answer is no. It hasn't changed and 
if you do actually listen to their words and believe what they 
say, they are telling you every week some senior political or 
military leader in that regime is telling you that their 
objectives of world without America and destroying the State of 
Israel is still very much in place.
    Mr. Poe. So that is their goal. Does the United States 
policy deal with that issue? Are we hoping to change their mind 
or are we hoping to force them to change their mind? What is 
our policy toward the comment that they want to eliminate us? 
All right, Mr. Einhorn, you have been wanting to answer a 
question. This one is yours.
    Mr. Einhorn. Okay. It is the policy to counter Iran's 
destabilizing behavior wherever it is and to beef up the 
defenses of our partners in the region so that they can 
withstand intimidation and pressure from the Iranians.
    Mr. Poe. Let me interrupt you there. If the Iranians get 
nuclear weapons, don't you think that there will be a rush with 
Saudi Arabia, Turkey, and Egypt to get nuclear weapon programs, 
Mr. Takeyh?
    Mr. Takeyh. I do think there will be an inclination to move 
toward appropriation of such technologies. And that is 
something for the United States to be very mindful of 
proliferation. I do think at times we tend to have exaggerated 
views of cascades and so forth, namely that one nuclear power 
can trigger similar things. And that would be a very great 
challenge for the United States to temper----
    Mr. Poe. Do you think those three countries will be 
encouraged by the fact that Iran gets nuclear weapons to have 
their own nuclear weapon program?
    Mr. Takeyh. I think they are already encouraged to move in 
the direction of indigenous enrichment which is a precursor to 
such weaponry.
    Mr. Poe. My time has expired. The Chair will recognize the 
gentleman from Rhode Island, Mr. Cicilline, for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here today to discuss this incredibly 
important issue. I, for one, am grateful to the administration 
for their efforts to bring the Iranian Government to the table 
for these historic negotiations. I think it is important that 
we remember exactly what we are talking about here if the 
negotiations were to fall apart. At the moment, the 
administration is attempting to reach a diplomatic solution to 
prevent Iran from acquiring a nuclear weapon. Should these 
negotiations fail, the United States, the international 
community together must be prepared to respond appropriately 
including by using force, if necessary. But I think it is 
absolutely vital that we undertake in good faith every 
reasonable effort that we can to reach a non-military solution 
and devote all the time and energy necessary to do that.
    The President has asked Congress to give him until the end 
of June to reach a deal and I, for one, am inclined to honor 
that request. However, we all agree that Iran has to understand 
this process will not be open ended or indefinite.
    And with that, I go to my first question. The 
administration has said that the Iranian economy has been 
crippled by the sanctions. A recent State Department fact sheet 
said that Iran's economy contracted nearly 7 percent in the 
last year and contracted a further 3.4 percent through December 
2013. Yet, we have also seen recent economic analysis that says 
that the Iranian economy is beginning to recover as a result of 
the sanctions relief under the Joint Plan of Action. Who is 
right? What has the impact been of the limited sanction relief 
that we have already provided? Are the sanctions still 
providing for us the kind of leverage that we need at the 
negotiating table to get the right deal? And what has been the 
impact of the drop in oil prices on the Iranian economy? And I 
invite whoever has the best and most accurate information with 
respect to this issue.
    Mr. Takeyh. I would just say they are both right. The State 
Department Fact Sheet that captured the situation in 2013 is 
correct and the IMF report that has suggested incremental 
growth in the Iranian economy since then is also correct.
    Mr. Einhorn. Congressman, I think what has happened is a 
kind of Rouhani effect. Rouhani's economic managers are much 
more competent than Ahmadinejad's economic managers. And so you 
have had some incremental improvements. But I think especially 
with the oil price drop and the continuation of our sanctions, 
the Iranian economy cannot possibly recover. I think sensible 
Iranians understand that. There has been a huge drop in per 
capita GDP. The rial, their currency, has dropped something 
like 56 percent from earlier years and even something like 19 
percent from November 2013. I think the data indicates that 
their economy is in really bad shape. Treasury Secretary Jack 
Lew said it is like they are at the bottom, they are stagnating 
at the bottom of a recession. And I think that is the reality.
    Mr. Hannah. Congressman, if I can, I would just say that 
whatever Bob says might be true, but I have no doubt that the 
IMF is right despite all of the--and they are in deep trouble 
economically. The trendline and trajectory is slowly upward, a 
reduction of economic pressure from where it was when the JPAO 
was signed. And I would just say that we have no historical 
experience of successfully denuclearizing its state when the 
economic, political, and military pressures are all going in 
the wrong direction, that is, decreasing, rather than 
intensifying.
    Mr. Cicilline. My second question is that some observers 
have suggested to us that Iran, the political leadership in 
Iran, the Supreme Leader, and the Iranian people, as a result 
of their efforts, have been convinced that somehow a nuclear 
weapons capability is either essential to their national 
identity or essential to their self defense. If that is true 
that they successfully persuaded themselves and the Iranian 
people of that, does that make a final deal on this impossible? 
Because in the end if they conclude, however erroneous it is, 
that it is essential for their self defense and they have 
convinced the Iranian people of that and in the context of 
Rouhani sort of running on some effort to change this sanctions 
regime, does it make both a deal impossible because a deal can 
obviously not include their ability to have nuclear weapons? 
And secondly, does it make the collapse of negotiations 
inevitable and a replacement of Rouhani by someone who is more 
hard line. And I will start with you, Mr. Einhorn.
    Mr. Einhorn. Congressman, Iran's leaders have convinced the 
Iranian public that their enrichment capability is almost a 
national birthright, a source of dignity and so forth. I think 
there is a consensus across the political spectrum. They are 
not prepared to give up enrichment.
    They haven't convinced the Iranian people that nuclear 
weapons are essential. Quite the opposite. The Supreme Leader 
says there is a religious decree of fatwa against nuclear 
weapons which is a good thing. Whether or not it is honest, it 
is a good thing because in the Iranian public they have the 
impression that this is not the policy of their country
    Mr. Hannah. Congressman, I would just note that I think it 
is going to be very difficult to get a deal. I don't think it 
is impossible, but I think you really have to be able to 
present the regime with a choice that either they are going to 
continue with this program or their regime is going to be held 
at real serious risk of either economic collapse or military 
attack. I think the Congress had put the administration in a 
position where that kind of choice was coming true for the 
Iranians in the fall of 2013. And I now worry that that is not 
necessarily the choice they are facing any more.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Chairman Royce [presiding]. Thank you, Mr. Cicilline. We go 
to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen. 
Take me back and kind of a review for maybe the new people and 
myself of why we started the negotiations? Who started it? Did 
we initiate it or did Iran come to the table and say we want to 
negotiate? Just real briefly any of you.
    Mr. Edelman. Congressman, I think I said in my statement we 
have had about 10 years' worth of diplomacy. So this really 
goes back to 2003 when the EU-3 was negotiating with Iran over 
the early stages of its enrichment program after it was exposed 
by the national----
    Mr. Yoho. What I mean, if I can cut you off, what I mean is 
with the negotiation and the release of the sanctions here 
recently, the current ones.
    Mr. Edelman. The Joint Plan of Action?
    Mr. Yoho. Right.
    Mr. Edelman. That was undertaken after the election of 
President Rouhani.
    Mr. Yoho. Did they come to us or did we say hey, let us 
start negotiating on this and straighten this out?
    Mr. Edelman. I think it would be fair to say that the 
administration since President Obama came in had been reaching 
out to Iran in the hope that they could engage them in a 
negotiation. It became possible after Rouhani was elected.
    Mr. Yoho. Mr. Hannah, what did we get out of the 
negotiation? What was the benefit for us out of this?
    Mr. Hannah. I think as Mr. Einhorn has explained that the 
JPAO does commit Iran to certain tactical pauses in certain 
elements of its current nuclear program. It happens to be on 
the enrichment end that they were pausing elements of the 
program that they have already quite perfected, that they don't 
really need to improve in order to race forward to a nuclear 
weapon.
    Mr. Yoho. And that is something I want to bring out because 
if you look over the past 25, 30 years, they have been 
progressing this way as an isolated state for the most part 
with sanctions on or off. And I see them progressing to this 
point. And I don't see that we got really a whole lot out of 
beginning these negotiations.
    Let me ask you, 10 years from now do you see a nuclear 
armed Iran? Mr.--how do you pronounce your name?
    Mr. Takeyh. I got the easy one. Ten years from now will 
Iran have nuclear weapons? I am not sure I can answer that 
question, Congressman, with any degree of precision.
    Mr. Yoho. Let me tell you what I have heard over the last 2 
years, my first term in Congress. We have had all kinds of 
experts sitting right where you are and they said within 6 
months and this was going back to 2013, that within 6 months 
Iran would have enough nuclear materials within 6 months to 
have five or six weapons. So I can only assume these experts, 
some of you guys might have been on that panel, you know, they 
were correct. So I can assume at this point, listening to the 
experts that Iran has the capability of that.
    In addition, we know they have detonated a trigger device. 
They have their ICBM missiles. So I will get to where I want to 
go on this. But when I was in vet school, I had a professor, 
things were real simple for us. He said if it looks like a 
duck, walks like a duck, smells and quacks like a duck, it is 
probably a duck.
    What I see with the intent of Iran is the same thing. With 
the rhetoric coming out, the extinction of Israel, the death of 
the Great Satan, the Little Satan, Israel, one bomb nation, the 
end of Zionism and all the other rhetoric that comes out of 
there, I have to believe what they say is they don't mean to 
carry on just a nuclear power program, that they are intent on 
getting a nuclear weapon, if so, and I really believe they are 
hell bent on doing that. What are we doing? Because what I see 
is this is an exercise in futility, especially with the sunset 
clause.
    Regardless of what we negotiate within 5, 10 years or 
whatever that date is, all restrictions are gone, so therefore 
they are going to be that. You know, to answer my own question, 
I see them either having it, the capability, or already having 
it. What are we doing as a nation to protect when that point 
comes? What are we doing to prepare for that next phase?
    Mr. Takeyh. I would say one thing in point of agreement 
with you, it is at times suggested that Iran will have all the 
ingredients of nuclear weapons, but not cross the line. I think 
if they get there, they will cross.
    Now what are we doing in the region? I think at this point 
if there is an agreement, I suspect that any administration in 
power will try to enhance the security of the regional allies 
to various deployments and various anti-missile forces and so 
on.
    Mr. Yoho. Mr. Einhorn, and then I want to add one more 
comment at the end.
    Mr. Einhorn. The U.S. intelligence community has decided 
year after year after year that Iran is insisting on preserving 
an option the Supreme Leader wrote, but it has made no decision 
yet on whether actually to build nuclear weapons. I think this 
is an issue for the future. What we can do through an agreement 
is to deter them from making that decision to cross the line. 
We can do it by making the path ahead to nuclear weapons very 
long, long breakout time, getting the capability to detect 
breakout at a very early stage and also threatening them with 
consequences if we detect breakout, so that they know that they 
will not be able to succeed. I think that is the theory of the 
case.
    Mr. Yoho. Thank you. And I yield back.
    Chairman Royce. Thank you. We go to Mr. Alan Lowenthal of 
California.
    Mr. Lowenthal. Did I go out of order here?
    Chairman Royce. Yes, I missed Mr. Gerry Connolly. I best go 
by seniority. Mr. Connolly, Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Thank you, Mr. 
Lowenthal. Welcome to the panel.
    Mr. Hannah, if I heard you correctly, you basically said 
and I don't want to put--but what I heard you say to us was it 
is worth the gamble if the past is prologue, sanctions didn't 
drive them away. In fact, sanctions helped bring them to the 
table. What probability though would you put on that not 
working this time, that unintentionally--we have got to 
remember Iran also was a political system and there are 
factions. And there is probably a faction that would like to 
resolve this issue more in our favor than not and then there is 
another faction, probably the Supreme Leader leads that faction 
that is very suspicious of this and frankly wants to see the 
status and everything else that flows from becoming a nuclear 
power.
    We need to be careful that we are not unwittingly playing 
to a faction not in our interest, not that we have friendly 
factions, but less friendly factions. Don't we need to be a 
little bit careful about new sanctions and the risk that the 
fact the Iranians walk away from the table and use it as an 
excuse to say we are done. And then the only option is what a 
previous panelist referred to as kinetic options.
    Mr. Hannah. Thank you, Congressman. I do think that you 
have to, however low the probability you place on it, you have 
to hold out the contingency that perhaps the President is right 
and that Iran will try and use this as a chance to break out 
and resume its nuclear program. I think it is unfortunate that 
it might be part of a self-fulfilling prophecy and that I think 
the President is now giving the Iranians, as well as some of 
our international partners, the grounds and the arguments to do 
exactly that. The President didn't have to do that. I can think 
of a much different approach he would have taken in which he 
would have said I don't agree with the Congress, I don't think 
I need this power. I don't think it is in violation of the 
letter of the JPOA. We have got enough waivers in these 
prospective sanctions that if necessary I will continue to 
prevent sanctions from going into place on the Iranians, but 
still make the argument that if the Iranians made the fateful 
choice to try and break out, this Congress and this Executive 
Branch would be completely unified in mobilizing our 
international partners to say that would be outrageous, and 
that if Iran wanted to play that dangerous game, there is a 
much higher, higher price to pay for them potentially beyond 
whatever is being considered in these new prospective 
sanctions. But I do think you have to take it into account and 
plan for it that that could be an outside possibility.
    Mr. Connolly. Ambassador Edelman.
    Mr. Edelman. Mr. Connolly, if I could add to Mr. Hannah's 
answer. I, from my own experience in government, am somewhat 
skeptical of arguments about sanctions driving people away from 
the negotiating table. During the course of the six party talks 
with North Korea in the Bush administration in 2007, we were 
told unless the Banco Delta Asia sanctions were lifted, North 
Korea was going to walk away from the table. We lifted those 
sanctions.
    We then took North Korea off the terrorism list in the 
summer of 2008. We then got them out from under the 
restrictions of the Trading With the Enemy Act and those 
negotiations collapsed and failed anyway, despite the relief of 
sanctions. I think that was because North Korea had not made a 
fundamental decision to limit its nuclear weapons program and 
give it up and I think that is the same issue we are facing now 
with Iran.
    Mr. Connolly. I am going to ask the chair if he will 
indulge the other two panelists to answer the same question.
    Chairman Royce. Proceed.
    Mr. Connolly. I thank the chair. I do want to say to you, 
Ambassador Edelman, I take your point. But what if you are 
wrong? It is a rhetorical question. But I mean as a member who 
has to vote I would hope every one of us takes that 
responsibility seriously.
    Mr. Edelman. And you should.
    Mr. Connolly. When Congress queers the deal in foreign 
policy it is a big deal. The League of Nations comes to mind. I 
am not sure that was our finest moment. And so we have got to 
tread carefully. We can't just be facile about this, not that 
you are being, but we must weigh this very carefully and we do 
have to ask the question what if we are wrong?
    May I ask the other two panelists, if either one wanted to 
answer the question? And I thank the chair for his indulgence.
    Mr. Takeyh. I think there are a number of reasons why Iran 
has remained on the table that have nothing to do with the 
nuclear issue. Number one is it seeks legitimization of its 
nuclear program. That can only come at the table. Number two, 
it does get a measure of economic relief, not in terms of the 
$700 million, but in terms of the atmosphere that is conducive 
to economic growth. That would also evaporate if it leaves the 
table.
    Finally, Iran's very aggressive policies in the region are 
not being really challenged by the United States partly because 
of the nuclear negotiations so that veneer of protection will 
move. So there are a lot of reasons why Iranians have an 
interest in the table, in the negotiations, even if those 
negotiations are impassed.
    Mr. Einhorn. Congressman, no one knows for sure whether new 
sanctions legislation will scuttle the deal. By the way, all of 
the P5+1 partners, all of whom have Embassies in Tehran and 
have good contacts with the Iranians, all of them believe that 
it would be very dangerous for us to pursue this course and it 
could well undermine the negotiations. But we just don't know. 
I tend to believe, I tend to agree with Eric, I tend to believe 
they won't walk out, but I think it could have a deleterious 
effect on the prospect for greater Iranian flexibility. The 
question is are they necessary? Is it worth the risk? Should we 
take that risk? Because right now we have strong economic 
sanctions in place that are continuing to hurt the Iranians. We 
have the oil price drop which is also hurting the Iranians.
    And we can always come back. If we need to in June, we can 
come back quickly and we can legislate new sanctions at that 
point. And I suggested in my statement earlier, the Executive 
and the Legislative Branches should be working now on new 
sanctions legislation. Work them out. Get agreement. Work 
together and have something that can be voted on quickly and 
implemented quickly, if necessary, at the end of June or 
whenever. So I think that is the question congressmen have to 
ask themselves, is it worth the risk?
    Mr. Takeyh. Can I just say one thing about a conversation 
that you and I had, Congressman Connolly, at this hearing and 
when I said to you that the administration has to come back and 
say why does it think at the time of the last extension the 
next 6 months will be different than the last 6 months? You and 
I had that conversation.
    It turned out the last 6 months were not that different 
from the previous one. Whatever your view on sanctions is, the 
administration is obligated to come to this House and say why 
do they think the next 6 months will be different than the last 
6 months? Why do they think they have sufficient coercive 
leverage in the negotiations that are admittedly stalemated?
    Mr. Connolly. And Mr. Chairman, picking up on that----
    Mr. Perry [presiding]. Will the gentleman suspend? I 
appreciate your time, but you have got to let folks weigh in. 
The gentleman's time has expired. The Chair recognizes Mr. 
Zeldin.
    Mr. Zeldin. Thank you, Chairman. I want to thank Chairman 
Ed Royce and the Foreign Affairs Committee for taking a 
leadership role on this issue. Regardless of whether the 
President is getting played or he is just playing along, when 
the President gets played, my country gets played. Senator Bob 
Menendez made a comment of the leader from his own party that 
it seemed like his talking points were coming directly from 
Tehran.
    When the President says and his administration says that 
there is an agreement and the leadership of Iran is immediately 
refuting the terms of that agreement, in any way, there is no 
meeting of the minds at all. Over the course of this debate, 
whether we go back 10 years or we go back over the course of 
the last 12 to 18 months, Iran has made a tactical decision 
that they will benefit from billions of dollars of economic 
benefit in return for pursuing nuclear capability, but doing it 
just a little bit slower than they were previously. I think we 
need to understand that our enemies do not respect weakness. 
They only respect strength.
    I support increased sanction. Mr. Sherman said at the 
beginning of this hearing that it is important that we have a 
July 1st game plan. This only goes into effect if there is no 
deal.
    I was criticized for my expression of gratitude for the 
Israeli prime minister accepting the invite to come address a 
joint Congress. Some say that having the Israeli prime minister 
here undercuts America's foreign policy. One colleague on the 
other side of the aisle said yesterday that it is a subversion. 
If having the Israeli prime minister come address a joint 
session of Congress is undercutting American policy, then there 
is something wrong with America's foreign policy.
    I think that we need to be posturing ourselves always from 
positions of strength and not weakness. I believe in American 
exceptionalism. We are a great country. We have seen it in Iran 
as we have seen it in other foreign policy challenges our 
country faces. There is nothing to apologize for if the 
President sees himself with leverage going into negotiations.
    And my question in some form or fashion with my colleagues 
before me has been asked, but I would just like you to speak to 
the very simple question of if Congress passes increased 
sanctions, does that give this President--which only go into 
effect if there is no deal--does that give this President more 
leverage or less in his talks?
    Mr. Edelman. Congressman Zeldin, I cannot imagine how it 
cannot give him more leverage as the previous sanctions have 
already given us leverage. I agree with Ray that economic 
sanctions alone are not enough. I think we need to do a few 
other things. I spoke in my statement about the importance of 
convincing Iran that the military option is serious and real. 
The administration likes to say all options are on the table. I 
think when the Supreme Leader gives speeches ridiculing that 
behind banners that say ``America can't do a damn thing to 
us,'' it tells you that they are not convinced that it is real 
and they need to be convinced that it is real because that is 
part of getting them to the point that I think Mr. Hannah was 
talking about earlier, concluding that a diplomatic solution is 
the best option for them because the other options, both 
economic and military are worse.
    Mr. Hannah. Congressman, I think that in theory it should 
give you more leverage, makes it much more difficult to have 
more leverage when you have the leader of the negotiations, the 
President of the United States himself arguing against it, 
saying he doesn't want it and saying that such action would, in 
fact, constitute grounds for unraveling the international 
coalition and for our enemy walking away from the table and 
resuming its nuclear program. So I think that is extremely 
problematic. I think it could work, but I am worried about it.
    Mr. Takeyh. I will say that if it is the administration's 
position that the sanctions are unnecessary at this stage, then 
they are obligated to say how do they propose to change the 
dynamics of stalemated talks.
    Mr. Einhorn. The administration says pressure is necessary 
at this stage. It just believes that there is sufficient 
pressure now augmented by the drop in the oil prices. There is 
sufficient pressure. The question is whether there should be 
what would be perceived internationally as a premature and 
unnecessary provocation.
    Mr. Zeldin. I thank the panel and again to the committee 
and to the chairman. Last night I was in my office rereading 
the U.S. Constitution and I see components of it talking about 
the power of the purse of Congress, the ratification of 
treaties, the declaration of war. Those out there who said that 
this body is not an equal branch of government and does not 
have a role in America's foreign policy I would recommend that 
it would be good reading to look at the U.S. Constitution and 
some of its analysis. I yield back the balance of my time.
    Mr. Perry. The gentleman yields. The gentleman from 
California, Mr. Lowenthal, is recognized.
    Mr. Lowenthal. Thank you, Mr. Chair. And I want to thank 
the panelists for having this discussion today and educating 
us. It couldn't be more timely obviously at this moment, 
especially after the President in the State of the Union asked 
Congress not to impose any sanctions until the final details of 
the agreement come out.
    So my question and I think you have all dealt with it and I 
first want to associate myself with many of the comments by 
other members, especially Mr. Cicilline, who I am very 
supportive of diplomacy if it works. So the question I have in 
a much more specific way is in the Senate there is the Kirk-
Menendez Bill that has been introduced, which really talks 
about specific, what to do now, specifically. And I think Mr. 
Einhorn has already kind of answered this question, but I would 
like to know from Ambassador Edelman and Mr. Hannah and Mr. 
Takeyh, would you recommend that we take up that bill or a bill 
similar to that, that specific bill which really does do--
increases sanctions if the interim agreement doesn't lead to a 
comprehensive agreement. It is real clear. Should we be dealing 
with that specific bill now?
    Mr. Edelman. Mr. Lowenthal, I would, were I in your shoes, 
bearing in mind, the understandable concerns that Mr. Connolly 
and others have raised. Look, I spent 30 years as a career 
diplomat, so I, too, support diplomatic efforts. I don't think 
there is anybody on this panel or really very many people who 
follow this issue who don't believe that a diplomatic solution 
would be far preferable to having to resort to other means, 
particularly military. But having said that, the key, I think, 
is what you said. Supporting diplomacy, if it is successful. 
And one of the challenges of diplomacy is not losing sight of 
what the objective is. And I have seen unfortunately many times 
where negotiators, understandably having been involved for a 
very long time, become very committed to the success of the 
negotiation with less concern about exactly what the outcome 
is. And we need to remember what outcome I think all of us are 
hoping for which is that we end up with a region that does not 
have an Iran that has a nuclear weapons capability or on the 
threshold of one.
    Mr. Lowenthal. Just before I go on to Mr. Hannah and
    Mr. Takeyh, I want to follow up on your answer. You know, 
timing is obviously critically important and I think that is 
what you are really saying in part is all the timing.
    Recently, Prime Minister David Cameron said it is the 
opinion of the United Kingdom that further sanctions or the 
threat of sanctions won't help at all now. And as was pointed 
out already by the representatives of Great Britain, France, 
Germany, European Union recently wrote a very powerful op ed 
piece saying that new sanctions now introduced could eliminate 
this coalition, could break the unity. Do you agree with that?
    Mr. Edelman. It is clearly a challenge for alliance 
management, but I think some of that challenge has to be met by 
firm leadership from the United States. Secondly, I think the 
question is are the sanctions that are being discussed now 
immediate or are they prospective? Somehow the Iranians are 
free to announce that they are building two more nuclear 
facilities which couldn't be less in the spirit of these 
negotiations than saying if the negotiations don't reach a 
successful outcome, then Iran would be subject to more 
sanctions. Somehow that is not a provocation to us, but the 
Congress considering sanctions is.
    I will tell you, Mr. Lowenthal, one of the reasons I don't 
believe the Iranians have been terribly serious about this 
process and bringing it to a conclusion, one of the signals to 
me that they are not, is the fact that they are not demanding 
that the administration come to the Congress for approval of 
whatever agreement is reached. If they were serious, and were 
intent on an agreement that would outlive this Presidential 
administration, they would say we will only agree to something 
that you take to the Congress so that we know it has gone some 
permanence to it.
    Mr. Lowenthal. Thank you. I would like to go on to Mr. 
Hannah.
    Mr. Hannah. Yes, I would associate myself with Ambassador 
Edelman's remarks, Congressman, and just simply note that if I 
was sitting across the table from the Iranians, I would want 
the Congress as active and making as much noise and being as 
frustrated as possible.
    Mr. Lowenthal. So you would be supportive of us taking up 
the Kirk-Menendez Bill as soon as possible?
    Mr. Hannah. I certainly would. I think any activity up here 
does give, should give our negotiators leverage to say this 
Congress is running out of patience.
    Mr. Lowenthal. Regardless what our other members of the 
P5+1 are saying?
    Mr. Hannah. So long as the President of the United States 
is agreeing with them that this is grounds for collapsing these 
negotiations, if you had the United States explaining to our 
P5+1 what needs to happen here and what these sanctions are all 
about, I think you would mitigate the problem enormously.
    Mr. Lowenthal. Mr. Takeyh?
    Mr. Takeyh. I would say, Congressman, that at this 
particular stage, given the differences between Congress and 
the President on this issue has not helped the negotiations at 
all and is not helping our negotiators. I would actually advise 
instead of the Congress, the White House to come to Congress 
and negotiate with it what kind of a sanctions bill they want, 
what kind of equities they want to negotiate. I think Bob 
mentioned that.
    Mr. Lowenthal. Before the end of June they should be 
coming, now publicly, after they have asked us not to do 
sanctions?
    Mr. Takeyh. They should have come long ago saying this is 
what we want to see in a sanctions bill and the Legislative and 
the Executive Branch can work something out. They do have 
interlocutors on the Hill, far more ready than they do in 
Tehran. And in that sense, I think the unity of the two 
branches of government are critical for success of diplomacy.
    Mr. Perry. The gentleman's time has expired.
    Mr. Lowenthal. Thank you.
    Mr. Perry. The Chair now recognizes Mr. Emmer from 
Minnesota.
    Mr. Emmer. Thank you, Mr. Chair, and to the distinguished 
panel, thank you for your time. I just have a couple of follow 
ups.
    For Ambassador Edelman, I think you have answered it now. 
At the beginning, you talked about recommending. You 
recommended threatening or imposing new sanctions or additional 
sanctions. From your most recent comments are you focused now 
on sanctions in the event these current negotiations are not 
concluded by the pending deadline?
    Mr. Edelman. Yes, sir.
    Mr. Emmer. And if you could do me one more favor and maybe 
I will take this to others, sanctions are only as effective, 
can only be effective if they are not hollow, in other words, 
if they have an impact. It really doesn't matter what somebody 
says whether they are going to honor it or not. If additional 
sanctions are imposed, whether now or once the deadline 
expires, are those sanctions going to be effective? Is that a 
rhetorical question?
    Mr. Edelman. Obviously, Mr. Emmer, it will depend a little 
bit on what you and your colleagues consider and what you put 
into the bill and how it is structured. I do think that there 
is, although Ray has written elsewhere, that Iran is the most 
sanctioned country in the world, I do think that there is still 
room, there are other sectors of the economy that haven't been 
hit yet, so I think there is still room to turn up the 
pressure. And I think there are other things we can do and 
members of the panel have suggested it, Mr. Sherman for one, 
others have. It shouldn't be just economic pressure. I think 
there ought to be support for democracy movements inside Iran. 
I think there ought to be broadcasting. I think there is a 
whole panoply of things we ought to be doing to put the regime 
on notice that we will oppose it across the board as it seeks 
to exert its hegemony in the region.
    Mr. Emmer. Mr. Einhorn, in the interest of time I have a 
different question for you. In the beginning, during your 
testimony, you indicated that you believe continued strong 
pressure, but not sanctions, additional sanctions at this 
point, would be the prudent course of action. But then you went 
on to say that we have time, that we don't need to act now and 
if the current deadline expires, comes and goes, that we still 
have time. How much time do we have, sir? What do you 
recommend? Another 6 months?
    Mr. Einhorn. I wouldn't put any arbitrary time limit on it. 
All I am saying is that the current interim arrangement works 
to our benefit much more than it works for Iran. Their nuclear 
program is frozen in all meaningful respects. The sanctions are 
biting very hard. I think if we cannot get the deal we want to 
get, we can afford to wait. They are under much more pressure 
than we are.
    Mr. Emmer. Let me ask you, sorry to interrupt, but in the 
interest of time, if the United States, our interest is peace 
and prosperity, not only in that region, but across the globe, 
and presumably that is one of the underlying reasons for these 
negotiations with this regime, what is Iran's incentive for a 
viable deal?
    Mr. Einhorn. Their main incentive is to get out from under 
the sanctions that are crippling their economy. I think that is 
what brought them to the table. That is their incentive.
    Mr. Emmer. But sir, and again, we get limited with time, we 
have already heard testimony that their policy has not changed. 
Their goal remains the same and that is the elimination of 
Israel and the United States. So getting out from underneath 
sanctions, again, I am going to ask you, what is their 
incentive then is just to bypass any real solution so that they 
can accomplish their goal?
    Mr. Einhorn. A number of panelists have made this point. 
They have to have a clear choice. They have to realize that 
they can't achieve their goal except by agreeing to a deal that 
meets our requirements.
    Mr. Emmer. Well then, let me ask Dr. Takeyh. Isn't the only 
way that you can give them a clear choice is if you have some 
choice? In other words, you either reach an agreement and 
eliminate the nuclear prospect or these sanctions will be 
imposed?
    Mr. Takeyh. I think at this particular stage, even in the 
aftermath of an agreement, Iran will maintain a nuclear 
infrastructure of some capability and after expiration of a 
period of time, perhaps a decade or so, then is free to move 
toward industrialization of that capability. So we will have to 
live with or without an agreement with an Iran with a sizeable 
nuclear infrastructure.
    Mr. Emmer. Thank you. I yield back.
    Mr. Perry. Chair thanks the gentleman and the Chair 
recognizes the gentleman from Florida, Mr. Clawson.
    Mr. Clawson. Thanks for hanging in there y'all. I think 
this is just about it. Israeli leaders have repeatedly 
indicated that they are prepared to take military action 
against Iranian nuclear facilities. They have also stated that 
they will not feel constrained from such action even if the 
P5+1 signs a deal with Tehran that leaves its uranium 
enrichment program intact. And there we have in our office what 
we call the Tel Aviv conundrum. The administration cuts a deal 
with Tehran. The Israelis feel even more vulnerable and even 
more unprotected.
    I guess my question is how do you all view that? What would 
the Obama administration do and how should we think about that? 
Israel's defense and safety is of very big importance to me and 
my constituents and it feels like this train is just going down 
the track and our friends are going to be left by the wayside. 
Am I seeing something incorrect here or how would you all 
respond?
    Mr. Edelman. Mr. Clawson, let me make just a couple of 
points in response to what you said. Number one, I do think 
that Israeli potential, Israeli action is a major concern for 
Tehran and I will give you some evidence for that. You may 
recall a couple of years back, Prime Minister Netanyahu made a 
speech at the U.N. General Assembly where he had the cartoon 
with the sort of Wile E. Coyote bomb and had the marker for how 
much 20 percent low-enriched uranium Iran would have to get 
before he would feel constrained to do something. And what was 
interesting is between that period and then the negotiation 
between the Joint Plan of Action and the Iranians very, very 
carefully kept below that level. They were down blending even 
then, even before the Joint Plan of Action, some of their 20 
percent low enriched uranium.
    That suggests to me that at least somebody's red line had 
some--held some concern for the Iranian leadership. Point 
number one.
    Two, I said in my statement that I think the United States 
ought to be talking with Israel now about what kinds of 
capabilities Israel thinks it needs to deal with this problem, 
in part, because I think that is an incentive for Iran to reach 
a deal. I think just the process of beginning those discussions 
with Israel could begin to have some impact on Tehran's 
calculus about this.
    And then the final point I would make is I think it was, I 
am not sure who it was in the administration who gave an 
interview with The Atlantic with Jeff Goldberg, thank you, 
suggesting that the administration had blocked Israel from 
taking any action on this, but I think it was very, very ill 
considered both because of the manner in which it treated an 
ally, but also because it undercut the potential impact that 
Israeli calculations might have on Tehran.
    Mr. Clawson. So are you implying that Israel is a more 
effective deterrent to Tehran than we are, given the approach 
of our current administration?
    Mr. Edelman. Mr. Clawson, deterrence is always a function 
of capability and will. And I think in this case, I think right 
now Israel might not, well, they don't have as much capability 
as the United States does to inflict military damage on Iran's 
program, but----
    Mr. Clawson. But they have more will.
    Mr. Edelman. But they probably are perceived to have more 
will.
    Mr. Hannah. Yes, Congressman, I would just say I agree with 
Ambassador Edelman that it is unbelievably unfortunate that the 
United States has actually been talking down the Israeli 
military option, the way they have, because I think the 
credibility of an Israeli strike is something that has been or 
should be quite useful and helpful to the United States.
    Having said all of that, I think if we get to the kind of 
agreement that we are headed to with only a 12-month margin in 
which the Iranians could race to a bomb, if we sign on to that, 
if the international community does, I think it will put an 
Israeli military option at great jeopardy. It will put Israel 
in an unbelievably difficult position. And I would hope that 
the United States, as part of any agreement, would come to the 
Israelis and provide some very concrete, specific assurances on 
what action we will take, including military action at the 
first indication we have of an Iranian material violation of 
any agreement going forward. I think that kind of agreement 
with the Israelis is going to be essential if we are not going 
to force the Israelis to either go it alone or swallow an 
agreement that leaves them 7 minutes away from an Iranian 
ballistic missile with a warhead on it.
    Mr. Clawson. So what I am hearing from all of you, at least 
the two that have spoken, is that our current approach is 
disjointed, not just from Congress, but moreover from our 
biggest friends in the region.
    Mr. Hannah. I would agree.
    Mr. Clawson. Yield back.
    Mr. Perry. The gentleman yields. Gentlemen, you are at the 
finish line, however, you have got me standing in the way, you 
and lunch, so I will try and be brief here. I do find it 
somewhat fascinating that the conversations, some of them, 
center around the fact that if we impose or have this 
discussion about the imposition of more sanctions or the 
panoply of other measures, as the Ambassador says it, that 
somehow we are the ones that are scuttling the negotiations. I 
find that fascinating in the context of these folks, the 
Iranians in particular, that have obfuscated, have been 
historical obfuscators and strategic delayers of unparalleled 
proportion. And I think the world can see that over the course 
of time, they have marched forward, maybe in fits and starts at 
some point, but have marched forward with their program and the 
rest of the world has found a way over time to forgive more and 
more and more of it and this is just a continuation of that.
    So with that though, I am just curious, the IAEA has 
uncovered significant evidence that Iran has engaged in 
activities related to the development of nuclear explosive 
devices or warheads and it refers to such activities as 
possible military dimensions or PMD.
    Ambassador, can you tell us were these issues mentioned in 
the interim agreement, the PMD issues?
    Mr. Edelman. In the Joint Plan of Action, the issues of PMD 
are left to the IAEA to adjudicate with Iran and so far the 
IAEA has not been able to make very much progress on that. And 
in some areas, like the military explosive activity that may 
have taken place at the Parchin facility, it seems pretty clear 
from IAEA reports that the Iranians are very far along in 
cleansing and cleaning up that site, so it won't be possible to 
really learn much from going there.
    Mr. Perry. So we are leaving it up to the IAEA, but 
wouldn't you agree that that the PMD, the military dimension, 
if Iran were seeking purely a civilian power generation kind of 
approach to this whole thing, I don't think a whole lot of the 
world would have as much difficulty as we have right now. It is 
the military dimension.
    What is in the United States' or the West's interest and 
the coalition partners' interest to allow the IAEA to negotiate 
that portion of the agreement?
    Mr. Edelman. Well, the IAEA certainly has a lot of 
technical expertise that can help them get to the bottom of 
this, but I agree, I think, with the thrust of your question as 
I said earlier, it is inconceivable to me that we can design a 
monitoring and verification regime for any agreement without 
having satisfied ourselves that we understand the past military 
dimensions of Iranian activity. I don't know how you would even 
know where to look if you hadn't gotten to the bottom of most 
of these issues, if not all of them.
    Mr. Perry. It seems to me that regarding the military 
dimension certainly we want the IAEA's technical expertise, but 
we must set the course and the foundation and the vision for 
what will be allowed and what will not be allowed, and if we 
leave that lock, stock, and barrel to them, who knows where we 
might end up. It sounds incredibly irresponsible to me which 
goes to the other point where some folks say well, the 
President should be coming to the Congress to discuss what is 
next and what sanctions may be. I don't know if you have 
watched current events, if you are aware, but he has just said 
you folks stay out of it, I will handle it. So we are duty 
bound by our duty to the country and to our constituents to do 
something in the face of what we see as irresponsibility.
    With that, a key component is the delivery system, the 
delivery capability. Shouldn't the long-term agreement include 
limitations on the ballistic missile capability?
    Go ahead, Mr. Ambassador?
    Mr. Edelman. Well, I certainly agree with that. I think it 
is a fact that no country in the world has had a ballistic 
missile program of the scale and scope of Iran's without 
actually moving forward to develop a nuclear weapon.
    Mr. Perry. Mr. Hannah, should we be concerned? I just saw 
recent reports. I am sure you saw the photographs of the tower 
of the alleged ballistic missile located within. Should we, as 
Americans, be concerned? Is this something expected, 
unexpected?
    Mr. Hannah. I think we absolutely should be concerned, 
Congressman. There is absolutely no purpose for Iran to have an 
intercontinental ballistic missile system capable of hitting 
the United States and Western Europe unless it is married to a 
nuclear warhead. There is no military rationale for it.
    Mr. Perry. I mean this may seem elementary, but what 
purpose does the ballistic missile system have regarding a 
nuclear warhead in a peaceful nuclear program? Where is the 
nexus? What am I missing? What are the American people--what 
are all of us fools missing that think that we ought to impose 
the panoply on Iran? What are we missing? Am I missing 
something, Mr. Hannah?
    Mr. Hannah. I don't think so, Congressman, other than the 
fact that the Iranians have insisted this is a red line for 
them. They will not discuss it and if we want a deal on the 
nuclear issues, then we need to leave this issue of ballistic 
missiles out of the negotiations. That is all I am aware of.
    Mr. Perry. It is nice to know they are in the driver's 
seat. With that, I will yield back. Sorry, I thought you were 
free, but Mr. Issa is here, so I recognize the gentleman from 
California.
    Mr. Issa. Thank you. You are almost free. I want to try to 
put something in perspective and then ask a very broad 
question. I think when you are the last to ask a wrap-up 
question sometimes has less fact and more history.
    A silver-haired gentleman over my shoulder, the late Henry 
Hyde, he hadn't served 5 years in this body, even though he 
served 35 years, when Iran, under its present government using 
the guise of ``students,'' took hostage all of our Embassy 
personnel and kept them for 1,000 days. Negotiating with the 
Jimmy Carter administration as though there was something to 
negotiate, but never providing them until it was in their best 
interest. Mr. Hyde was still a junior member, a lot less gray 
hair, as they proceeded to fund terrorism around the world 
including blowing up our Marines in '82 in Beirut, including 
the formation funding of Hezbollah from its inception until 
today.
    Hafez Assad was still running Syria and counted on Iran to 
provide him with money and munitions for decades between the 
time Henry Hyde was a fairly young man and now approaching his 
100th birthday. We have gone 35 years with a government that 
funds and exports terrorism, who has used its vast oil wealth 
not even to create in their country, even to create the ability 
to refine their own oil into gasoline. Their priorities have 
been on exporting terrorism, destabilizing both the Sunni Arab 
world and quite frankly the opportunity for peace in Israel. 
For 35 years, you can point to Iran as the single closest 
reason of why we do not have peace for the Palestinians and the 
Israelis.
    So let me ask the question. I will start with Mr. Hannah, I 
will go to all of you. Why in the world are we negotiating and 
talking today about a small part of a small delay in their 
ambition to have the ultimate weapon to give them impunity to 
continue doing what they have been doing for 35 years?
    Mr. Hannah. If that is the objective, and if that is where 
we are headed, as I have said in my testimony, Congressman, I 
don't think it is worth a candle to be going down that route, 
especially if we are ignoring the fact that this export of 
terror has only escalated and accelerated in the last year. I 
don't think that should be the objective. I think our objective 
should be to present them with a choice, that either you stop 
this nuclear program that is the greatest threat to 
international security that exists today or your regime will be 
put at serious risk by the United States, by the combination of 
a threat of military force that is very credible and crippling 
economic sanctions that essentially shut down the Iranian 
economy. Without that choice, I think this is a fool's errand.
    Mr. Issa. Mr. Takeyh, obviously, the whole day we have been 
talking about a fairly narrow part of our relationship or lack 
thereof with Tehran, but again, a fundamental question. It has 
been asked wonderfully as to whether or not we should tag on to 
the back end of the President's negotiations, but the bigger 
question is why is a Member of Congress who is still a first 
lieutenant in the Army with no gray hair--not much hair 
actually at the time--and now 35 years later is sitting here, 
why is it that I should believe that we should even be talking 
about the scope of well, if you will just slow down to a crawl 
your nuclear development then we have got a deal and completely 
ignore the human rights violations inside Tehran, or Iran, but 
particularly the constant export of terrorism in which country 
by country, it is Iran's goal to in fact, destabilize 
countries, both are friends and our foes within the Arab and 
Muslim world?
    Mr. Takeyh. I think I agree with the thrust of your 
question, Congressman. We shouldn't be ignoring human rights 
abuses in Iran. We shouldn't be ignoring the fact that Iran has 
a very aggressive regional policy today, and particularly, we 
shouldn't be ignoring the fact that something that we don't 
talk about is Iran today is undertaking military invasion of 
Iraq with the seeming complicity of the Iraqi Government and at 
least the passive indifference of the international community.
    Mr. Issa. I don't mean to interrupt you, because your 
answers are great, but as many of us that were on the dais 
earlier know, Iran was providing the expertise to blow up, 
dismember and kill our people from the very first days we put 
boots on the ground in Iraq, they were providing advanced IED 
capability. So it is not like they haven't been doing that 
steadily including hundreds, perhaps thousands of Americans are 
dead because of their assistance, but please continue.
    Mr. Takeyh. I would just say that all activities of Iran 
that are unsavory of which the catalog is a long one, and the 
principal victims of the Iranian regime are the Iranian people. 
And then everybody else in the region. All those should be part 
of the American policy. Nuclear agreement or not, in my view, 
we are destined to remain adversaries with this particular 
regime and we should approach the relationship accordingly.
    Mr. Issa. Thank you. Mr. Einhorn.
    Mr. Einhorn. Congressman, you asked the basic question, why 
should we be negotiating on the nuclear issue with a regime 
that has done all these terrible, destabilizing things. And I 
think the reason is that if we can stop their march toward 
nuclear weapons, then we can prevent a situation where they can 
do all of these bad things, but under the cover of a nuclear 
weapons capability. In other words, they could be empowered to 
do much worse. That is why it is important to deal with the 
nuclear issue. At the same time----
    Mr. Issa. Let me characterize, Chairman, if you will give 
me a little indulgence. If I am characterizing your statement, 
what you are saying in a nutshell is if they get a nuke, we 
will never be able to stop them from terrorizing all of their 
neighbors, exporting terrorism with impunity?
    Mr. Einhorn. I don't mean to say that.
    Mr. Issa. Well, but you are saying is we can stop them, 
they won't be able to do it. For 35 years, they have never quit 
doing it. So if they get a nuke, not only will they not quit 
doing it, but we won't be able to encourage them to quit doing 
it. Is that correct?
    Mr. Einhorn. I think with a nuke, they will be empowered to 
do worse. It doesn't mean that if we get a nuclear agreement 
they are going to stop doing that. We are going to have to 
counter them on these other behaviors with or without a nuclear 
agreement and we should be doing more of that as some of the 
other panelists have mentioned.
    Mr. Issa. Ambassador, you look like you have got your mic 
on?
    Mr. Edelman. Yes, Congressman Issa, your question cuts very 
close to the bone for me. When I was a junior foreign service 
officer and was special assistant to George Schultz, I was the 
person who had to wake him up in the middle of the night when 
the Marine barracks was bombed in Beirut. I went to Beirut with 
him in April 1983 after our Embassy was blown up and Bob Ames, 
the national intelligence officer for Middle East was killed. I 
served as Under Secretary for Defense for Policy for 4 years in 
the Bush administration from 2005 to 2009. And had to watch as 
the Sheibani Network and others, as you indicated, were killing 
American men and women in Iraq. I had to watch after I made six 
trips to Lebanon to help arm the Lebanese armed forces to try 
and create an independent military to withstand--to stand the 
country up after Syrian forces had withdrawn after the 
assassination of Rafik Hariri and watched Iran's terrorist 
proxies in Lebanon, upend all of that in May 2008.
    So I feel the gravamen of your question to my core. And as 
I suggested in my statement, we have to be prepared to contest 
Iran in its struggle to dominate the region across the board on 
all dimensions. I do think it is worth negotiating with them on 
the nuclear issue if we can stop them from getting a nuclear 
capability. I have very grave concerns, as I said earlier in 
the hearing, that we have retreated well beyond that red line 
to the point that what we may end up doing is ratifying an Iran 
with an industrial scale enrichment capability on the threshold 
of a nuclear bomb.
    Mr. Issa. Thank you. Mr. Chairman, in closing I pointed to 
my old friend, the late Henry Hyde. When I was a freshman of 
Lebanese-American descent or Lebanese descent, an American, 
Henry Hyde allowed me to go on a codel. And the first speech I 
ever made in a foreign country I made in Lebanon at our Embassy 
there, just above the monument, the memorial to those men and 
women that were killed both at the barracks and at the Embassy 
because our Embassy was also blown up. And at that time I said 
Hezbollah is a cancer on Lebanese society. What I wish I could 
go back and say in that speech is something a little fuller. 
Hezbollah is a cancer on Lebanese society funded, supported, 
paid for by Iran and until we stop Iran from exporting 
terrorism, there will not be free people in Iran, in Syria, in 
Lebanon, and I fear in most of the Arab and Muslim world.
    So Mr. Chairman, thank you so much for this hearing today. 
It is a good start on pushing back against giving up something 
that is as worth fighting for as the Cold War was for most of 
my parents' lives. Thank you. I yield back.
    Mr. Perry. The gentleman yields. The Chair thanks the 
gentlemen for their testimony and their service today and also 
the participants in the hearing and with that, this hearing is 
adjourned.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
      
[Note: Material submitted for the record by Mr. John Hannah, senior 
fellow, Foundation for Defense of Democracies, entitled ``The Case for 
Deadline-Triggered Sanctions on Iran,'' is not reprinted here but is 
available in committee records or may be accessed via the Internet at 
http://docs.house.gov/meetings/FA/FA00/20150127/102846/HHRG-114-FA00-
Wstate-HannahJ-20150127-SD001.pdf]
      
      
      
      
      
      
      
      
      
      
      
      

                                 [all]
</pre></body></html>
